<html>
<title> - THE OPIOIDS EPIDEMIC: IMPLICATIONS FOR AMERICA'S WORKPLACES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 THE OPIOIDS EPIDEMIC: IMPLICATIONS FOR
                          AMERICA'S WORKPLACES

=======================================================================

                              JOINT HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON HEALTH,
                    EMPLOYMENT, LABOR, AND PENSIONS


                                AND THE

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                                 OF THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 15, 2018

                               __________

                           Serial No. 115-35

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                
                         
                               _________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-575 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>                
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Elise Stefanik, New York             Mark Takano, California
Rick W. Allen, Georgia               Alma S. Adams, North Carolina
Jason Lewis, Minnesota               Mark DeSaulnier, California
Francis Rooney, Florida              Donald Norcross, New Jersey
Paul Mitchell, Michigan              Lisa Blunt Rochester, Delaware
Tom Garrett, Jr., Virginia           Raja Krishnamoorthi, Illinois
Lloyd K. Smucker, Pennsylvania       Carol Shea-Porter, New Hampshire
A. Drew Ferguson, IV, Georgia        Adriano Espaillat, New York
Ron Estes, Kansas
Karen Handel, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR, AND PENSIONS

                    TIM WALBERG, Michigan, Chairman

Joe Wilson, South Carolina           Gregorio Kilili Camacho Sablan,
David P. Roe, Tennessee                Northern Mariana Islands
Todd Rokita, Indiana                   Ranking Member
Lou Barletta, Pennsylvania           Frederica S. Wilson, Florida
Rick W. Allen, Georgia               Donald Norcross, New Jersey
Jason Lewis, Minnesota               Lisa Blunt Rochester, Delaware
Francis Rooney, Florida              Carol Shea-Porter, New Hampshire
Paul Mitchell, Michigan              Adriano Espaillat, New York
Lloyd K. Smucker, Pennsylvania       Joe Courtney, Connecticut
A. Drew Ferguson, IV, Georgia        Marcia L. Fudge, Ohio
Ron Estes, Kansas                    Suzanne Bonamici, Oregon
                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                    BRADLEY BYRNE, Alabama, Chairman

Joe Wilson, South Carolina           Mark Takano, California,
Duncan Hunter, California              Ranking Member
David Brat, Virginia                 Raul M. Grijalva, Arizona
Glenn Grothman, Wisconsin            Alma S. Adams, North Carolina
Elise Stefanik, New York             Mark DeSaulnier, California
Francis Rooney, Florida              Donald Norcross, New Jersey
A. Drew Ferguson, IV, Georgia        Raja Krishnamoorthi, Illinois
Karen Handel, Georgia                Carol Shea-Porter, New Hampshire
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 15, 2018................................     1

Statement of Members:
    Byrne, Hon. Bradley, Chairman, Subcommittee on Workforce 
      Protections................................................    52
        Prepared statement of....................................    54
    Sablan, Hon. Gregorio Kilili Camacho, Ranking Member, a 
      Representative in Congress from the Northern Mariana 
      Islands....................................................     4
        Prepared statement of....................................     6
    Takano, Hon. Mark, Ranking Member, Subcommittee on Workforce 
      Protections................................................    70
        Prepared statement of....................................    72
    Walberg, Hon. Tim, Chairman, Subcommittee on Health, 
      Employment, Labor, and Pensions............................     2
        Prepared statement of....................................     4

Statement of Witnesses:
    Allen, Ms. Lisa, President and CEO, Ziegenfelder Company.....    16
        Prepared statement of....................................    18
    Andrews, Dr. Christina M., PhD, Assistant Professor, 
      University of South Carolina...............................    33
        Prepared statement of....................................    35
    Rhyan, Mr. Corwin, MPP, Senior Health Care Analyst, Altarum 
      Institute..................................................     7
        Prepared statement of....................................     9
    Russo, Ms. Kathryn J., Principal, Jackson Lewis P.C..........    41
        Prepared statement of....................................    43

 
      THE OPIOIDS EPIDEMIC: IMPLICATIONS FOR AMERICA'S WORKPLACES

                              ----------                              


                      Thursday, February 15, 2018

                        House of Representatives

               Committee on Education and the Workforce,

        Subcommittee on Health, Employment, Labor, and Pensions

                             joint with the

                 Subcommittee on Workforce Protections

                            Washington, D.C.

                              ----------                              

    The subcommittees met, pursuant to call, at 10:02 a.m., in 
Room 2175, Rayburn House Office Building. Hon. Tim Walberg 
[chairman of the Subcommittee on Health, Employment, Labor, and 
Pensions] presiding.
    Present: Representatives Walberg, Byrne, Wilson of South 
Carolina, Rokita, Brat, Grothman, Stefanik, Allen, Lewis, 
Mitchell, Smucker, Ferguson, Estes, Handel, Sablan, Takano, 
Fudge, Bonamici, Adams, Blunt Rochester, Krishnamoorthi, and 
Shea-Porter.
    Also Present: Representatives Foxx, Thompson, Guthrie, and 
Scott.
    Staff Present: Marty Boughton, Deputy Press Secretary; 
Courtney Butcher, Director of Member Services and Coalitions; 
Michael Comer, Deputy Press Secretary; Rob Green, Director of 
Workforce Policy; Callie Harman, Professional Staff Member; Amy 
Raaf Jones, Director of Education and Human Resources Policy; 
Nancy Locke, Chief Clerk; John Martin, Workforce Policy 
Counsel; Kelley McNabb, Communications Director; Rachel Mondl, 
Professional Staff Member/Counsel; James Mullen, Director of 
Information Technology; Alexis Murray, Professional Staff 
Member; Krisann Pearce, General Counsel; Benjamin Ridder, 
Legislative Assistant; Molly McLaughlin Salmi, Deputy Director 
of Workforce Policy; Olivia Voslow, Legislative Assistant; 
Joseph Wheeler, Professional Staff Member; Lauren Williams, 
Professional Staff Member; Michael Woeste, Deputy Press 
Secretary; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Christine Godinez, Minority Labor Policy 
Associate; Carolyn Hughes, Minority Director Health Policy/
Senior Labor Policy Advisor; Eunice Ikene, Minority Labor 
Policy Advisor; Stephanie Lalle, Minority Digital Press 
Secretary; Andre Lindsay, Office Assistant; Richard Miller, 
Minority Labor Policy Director; Jacque Mosely, Minority 
Director of Education Policy; Udochi Onwubiko, Minority Labor 
Policy Counsel; and Veronique Pluviose, Minority Staff 
Director.
    Chairman Walberg. We welcome each of you to today's joint 
committee hearing of the Subcommittee on Health, Employment, 
Labor, and Pensions and the Subcommittee on Workforce 
Protections; a joint hearing today. I would like to thank our 
witnesses for joining us for this important discussion on how 
the opioid epidemic is impacting work places, workers, and 
family members from across the country.
    Before I go on any further, I think it is important for a 
Committee that has responsibility for education and the 
workforce to not miss some of the current events that take 
place. To come this morning and to see this headline and these 
pictures of grieving parents, students, in this unbelievably 
evil killing of 17 in Florida. It is not something that we can 
pass or should pass up easily.
    We are having this hearing because there is deep suffering 
in our communities relative to opioid heroin abuse, but there 
are other points of suffering as well. And we are earnestly 
looking for ways to deal with that suffering and pain that is 
so personal. But yesterday's tragic events in Parkland, Florida 
force us, I believe, to acknowledge once again that suffering 
and pain sometimes grip a community in the most shocking and 
unexpected ways. I have heard it said this morning and last 
night that thoughts and prayers are not enough. And they are 
not enough. I can understand why people would say that. But as 
someone who believes in prayer, who has seen its power over and 
over in my life, I know that any petition to the God who 
created us, the God whose heart is also broken, literally 
broken I am certain, when lives are ended in such a tragic and 
evil way, that these prayers are heard by Him.
    And so I believe this morning we need to pray for those who 
are burdened by grief and loss and pain this morning. We need 
to pray for those who are fighting to stay alive, we need to 
pray for those who are now going to have to find a way to move 
forward. And we need to pray for each other. We need to pray 
for understanding, for wisdom, for grace. We need to pray for 
guidance on what we can do because we have to do something, but 
not just something, to do the right thing for our communities, 
for our families, for our lives, for our future, to stop the 
heartache before it happens, and, when we can, to help rebuild 
when the need arises.
    So not desiring to offend in any way, and yet believing 
that we have a purpose that causes us to need higher counsel, I 
would ask you to allow me to pray.
    I come to you, Father God, thanking You for wisdom that You 
can give, and I thank You that You care for us and You hurt 
when we hurt. And today I ask that You give wisdom to all in 
Florida, as well as here in this room as we deliberate on 
things to help and not hurt_that You give us wisdom beyond 
ourselves. To be with the families in Florida who are hurting 
right now, who have lost tragically young lives. We pray for 
the school, that wisdom will be given to its administration as 
they move forward, and ultimately we will find answers that 
will move us forward in this great country, to be a united 
nation working together. And I pray this in Your powerful name. 
Amen.
    The tragic opioid epidemic has unfortunately become a major 
part of our national conversation and a problem that we must 
understand and address. Too many Americans from all walks of 
life_and I am sure everyone at these tables have experienced it 
in their district_with real live families and people that have 
suffered under the crushing impact of this terrifying epidemic 
and the abuse that goes with it. Far too many are dying from 
opioid misuse and overdose every day. According to the Centers 
for Disease Control and Prevention, opioid use, including 
prescription opioids, heroin, and fentanyl, was the cause of 
over 42,000 deaths in 2016, 40 percent of which involved a 
prescription. As policymakers, we need these statistics to 
inform what we do, but it is most important to remember that 
every casualty was a person with incredible potential. Not only 
were they members of our larger social communities, they were 
members of our work communities. Our coworkers see more of us 
during the average day than even our own families. The people 
we see in the workplace have a significant role in each of our 
lives and are part of the community around us. Many Americans 
work alongside those who suffer from opioid misuse, but may not 
understand what can be done to help their fellow coworker.
    According to the National Council on Alcohol and Drug 
Dependence, 70 percent of the 14.8 million individuals that are 
misusing drugs, including opioids, are currently employed. 
While this statistic is alarming, it also shows the workplace 
can be a resource for the community to identify those who are 
struggling with opioid misuse. And we are already seeing some 
employers assisting employees in their treatment and 
rehabilitation, and how encouraging that is. Already, many 
employers have deemed it necessary to update or promote 
existing policies to provide support to employees who struggle 
with opioid abuse. In fact, 70 percent of U.S. companies and 90 
percent of Fortune 500 companies have an employee assistance 
program to assist employees struggling with substance abuse and 
other problems. It is reassuring to see these kinds of programs 
and practices implemented by companies who want to see their 
employees healthy and productive. But more needs to be done. 
While much of the current dialogue is about the dangers of the 
opioid epidemic, we also need to hear about the proactive steps 
employers are taking to fight this epidemic within their 
workplaces and broader communities.
    That brings us to today's discussion of how the opioid 
epidemic is impacting American workers and what some employers 
are doing to address this problem. We must understand that the 
federal government must not act as a barrier or tie the hands 
of employers when it comes to addressing opioid abuse and the 
workplace. Rather, we should fortify employers' efforts to help 
their employees and family members who are affected by this 
epidemic.
    I look forward to hearing from our witnesses today and I 
thank Chairman Byrne for co-chairing this important joint 
committee hearing. And now recognize Ranking Member, and my 
good friend, Sablan, for his opening remarks.
    [The statement of Chairman Walberg follows:]

   Prepared Statement of Hon. Tim Walberg, Chairman, Subcommittee on 
                Health, Employment, Labor, and Pensions

    Good morning, and welcome to today's joint subcommittee hearing 
with the Subcommittee on Workforce Protections. I'd like to thank our 
witnesses for joining us for this important
    discussion on how the opioid epidemic is impacting workplaces, 
workers, and families cross this country.
    The tragic opioid epidemic has unfortunately become a major part of 
our national conversation, and a problem that we must understand and 
address.
    Too many Americans - from all walks of life and from all parts of 
the country - are facing the terrifying realities of opioid abuse, and 
far too many are dying from opioid misuse and overdose every day.
    According to the Centers for Disease Control and Prevention, opioid 
use (including prescription opioids, heroin, and fentanyl) was the 
cause of over 42,000 deaths in 2016, 40 percent of which involved a 
prescription.
    As policymakers, we need these statistics to inform what we do. But 
it's most important to remember that every casualty was a person with 
incredible potential.
    Not only were they members of our larger social communities, they 
were members of our work communities.
    Our coworkers see more of us during the average day than even our 
own families. The people we see in the workplace have a significant 
role in each of our lives, and are part of the community around us.
    Many Americans work alongside those who suffer from opioid misuse, 
but may not understand what can be done to help their fellow coworker.
    According to the National Council on Alcohol and Drug Dependence, 
70 percent of the 14.8 million individuals that are misusing drugs, 
including opioids, are currently employed.
    While this statistic is alarming, it also shows the workplace can 
be a resource for the community to identify those who are struggling 
with opioid misuse. And, we are already seeing some employers assisting 
employees in their treatment and rehabilitation.
    Already, many employers have deemed it necessary to update or 
promote existing policies to provide support to employees who struggle 
with opioid abuse.
    In fact, 70 percent of U.S. companies and 90 percent of Fortune 500 
companies have an employee assistance program to assist employees 
struggling with substance abuse and other problems.
    It is reassuring to see these kinds of programs and practices 
implemented by companies who want to see their employees healthy and 
productive. But more needs to be done.
    While much of the current dialog is about the dangers of the opioid 
epidemic, we also need to hear about the proactive steps employers are 
taking to fight this epidemic within their workplaces and the broader 
community.
    That brings us to today's discussion of how the opioid epidemic is 
impacting American workers and what some employers are doing to address 
this problem.
    We must understand that the federal government must not act as a 
barrier or tie the hands of employers when it comes to addressing 
opioid abuse and the workplace. Rather, we should fortify employers' 
efforts to help their employees and family members, who are affected by 
this epidemic.
    I look forward to hearing from our witnesses today, and thank 
Chairman Byrne for co-chairing this important joint subcommittee 
hearing.
                                 ______
                                 
    Mr. Sablan. Thank you very much, Mr. Chairman. Good 
morning, everyone. I would also like to associate myself with 
the prayer of the Chairman. Our hearts and prayers also go out 
to the victims, seven fatalities. It is tragic. And I couldn't 
help asking, so what is next, what is next? With all due 
respect, respectfully not being partisan, I would maybe 
consider that Congress would reconsider the plans and rather 
than cutting funding for mental health we should actually 
increase it so that those who need the help throughout our 
community, our country, would have access to mental health 
services and programs.
    The opioid crisis has ravaged communities across the United 
States. It is no surprise that the impacts of the crisis are 
being felt in the workplace by both workers and businesses. 
From workplace accidents and injuries, employees' absenteeism, 
low morale, and increasing lost productivity, our workplaces 
are experiencing the challenges of this epidemic. U.S. 
companies lose billions of dollars a year because of employees' 
drug and alcohol use and related problems. But it is the human 
toll that is the most devastating consequence of this epidemic.
    We know that those with substance use disorders come from 
all walks of life. From our factories to our boardrooms, the 
health needs of our workforce should be a top priority. Sadly 
these needs have gone unmet and behavioral healthcare has been 
out of reach for many, particularly lower wage workers, racial 
and ethnic minorities, and other marginalized populations. The 
Affordable Care Act improved and expanded treatment for people 
with substance use disorders through Medicaid and private 
insurance, although not for the people of my district, the 
Northern Marianas, and the other areas. The law mandated 
substance use disorder treatment as part of essential health 
benefits and brought in parity requirements to ensure that 
behavioral health is covered at the same levels as other 
medical coverage. Further, insurance can no longer deny 
coverage to people with substance use disorders or mental 
health conditions. Maintaining these important gains is 
paramount in the response to this crisis. Attempts to roll back 
these advances by weakening consumer protections or cutting 
Medicaid will only take us backwards. Additional funding at the 
federal level to combat the crisis will be squandered if we do 
not provide access to health coverage and a safe place to live 
and work.
    The President's new budget proposal is another missed 
opportunity to have a meaningful conversation about improving 
health in this country. Proposing to eliminate coverage and 
protection for millions of Americans is counterproductive, 
particularly during a crisis of this magnitude. Addressing the 
opioid epidemic requires a robust and coordinated approach. 
Efforts to prevent workplace injuries and illnesses are a 
critical step toward avoiding the prescription of opioids that 
initiates abuse.
    We should examine all the impacts that substance use 
disorder has on families and all the tools we have to help, 
including expanding prevention efforts, focusing on the entire 
family, increasing access to treatment, and facilitating 
recovery. We need to support those in recovery and provide them 
with economic opportunity to reintegrate into the community. 
Addressing addiction through treatment instead of punishment 
and incarceration should be applied across the board to all 
communities.
    It is encouraging that the community is taking time to 
discuss this issue and I am hopeful we can address it through 
increased funding for effective evidence based programs that 
help increase access, health coverage, and treatment. To help 
the workforce is key to help the economy.
    I thank the witnesses for taking the time to testify today 
and I look forward to hearing from them. I thank the two 
chairmen of the two subcommittees, and also my colleague and 
Ranking Member Mark Takano of the Workforce Protections 
Subcommittee.
    Thank you very much, Mr. Chairman. I yield back.
    [The statement of Mr. Sablan follows:]

  Prepared Statement of Hon. Gregorio Kilili Camacho Sablan, Ranking 
    Member, Subcommittee on Health, Employment, Labor, and Pensions

    The opioid crisis has ravaged communities across the United States.
    It is no surprise that the impacts of the crisis are being felt in 
the workplace - by both workers and businesses. From workplace 
accidents and injuries, employee absenteeism, low morale, and increased 
illness and lost productivity, our workplaces are experiencing the 
challenges of this epidemic. U.S. companies lose billions of dollars a 
year because of employees' drug and alcohol use and related problems. 
But it is the human toll that is the most devastating consequence of 
this epidemic.
    We know that those with substance use disorders come from all walks 
of life. From our factories to our board rooms, the health needs of our 
workforce should be a top priority. Sadly, these needs have gone unmet 
and behavioral health care has been out of reach for many, particularly 
lower wage workers, racial and ethnic minorities and other marginalized 
populations.
    The Affordable Care Act improved and expanded treatment for people 
with substance use disorders through Medicaid and private insurance. 
The law mandated substance use disorders treatment as part of 
``essential health benefits'', and broadened parity requirements to 
ensure that behavioral health is covered at the same levels as other 
medical coverage. Further, insurers can no longer deny coverage to 
people with substance use disorders or mental health conditions.
    Maintaining these important gains is paramount in the response to 
this crisis. Attempts to roll back these advances by weakening consumer 
protections or cutting Medicaid, will only take us backwards. 
Additional funding at the federal level to combat the crisis will be 
squandered if we do not provide access to health coverage and a safe 
place to live and work. The President's new budget proposal is another 
missed opportunity to have a meaningful conversation about improving 
health in this country. Proposing to eliminate coverage and protections 
for millions of Americans is counterproductive, particularly during a 
crisis of this magnitude.
    Addressing the opioid epidemic requires a robust and coordinated 
approach. Efforts to prevent workplace injuries and illnesses are a 
critical step toward avoiding the prescription of opioids that 
initiates abuse. We should examine all the impacts that substance use 
disorder has on families and all the tools we have to help, including 
expanding prevention efforts, focusing on the entire family, increasing 
access to treatment, and facilitating recovery. We need to support 
those in recovery and provide them with economic opportunity to 
reintegrate into the community. Addressing addiction through treatment, 
instead of punishment and incarceration, should be applied across the 
board to all communities.
    It's encouraging that the Committee is taking time to discuss this 
issue and I am hopeful that we can address it through increased funding 
for effective, evidence-based programs that help workers access health 
coverage and treatment. A healthy workforce is key to a healthy 
economy.
    I thank the witnesses for taking the time to testify today and look 
forward to hearing from them. Thank you. I yield back my time to the 
chair.
                                 ______
                                 
    Chairman Walberg. I thank the gentleman. Pursuant to 
Committee Rule 7(c) all subcommittee members will be permitted 
to submit written statements to be included in the permanent 
hearing record. And without objection, the hearing record will 
remain open for 14 days to allow statements, questions for the 
record, and other extraneous material referenced during the 
hearing to be submitted in the official hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses. Mr. Corwin Rhyan is a senior health care analyst 
at the Altarum Institute's Sustainable Health Strategies 
Program, where he studies health spending. Welcome. Ms. Lisa 
Allen is the president and CEO of Ziegenfelder Company, which 
offers help to employees needing addiction assistance. Welcome. 
Dr. Christina M. Andrews, PhD, is an assistant professor at the 
University of South Carolina where she examines addiction 
screening and treatment in diverse Medicaid health home models. 
Welcome. Ms. Kathryn J. Russo is a principal at Jackson Lewis, 
where she is the practice leader of the firm's Drug Testing and 
Substance Abuse Management Practice Group. Welcome.
    And now I will ask our witnesses to raise your right hand. 
We will swear you in to the record.
    [Witnesses sworn.]
    Chairman Walberg. Let the record reflect the witnesses 
answered in the affirmative.
    Before I recognize each of you to provide your testimony 
let me briefly explain our lighting system. It is like the 
traffic lights. When it is green, keep on going. When it turns 
yellow, you have a minute remaining to wrap your comments as 
quickly as possible. When it turns red, finish as quickly as 
you can. We will have the same process for our members of the 
Committee and they will indeed have opportunity to let you 
expand on some things maybe even you didn't get to in your 
testimony. We have the written testimony from each of you as 
well.
    And so without further ado, I will now recognize Mr. Rhyan 
for your five minutes of testimony.

  TESTIMONY OF CORWIN RHYAN, MPP, SENIOR HEALTH CARE ANALYST, 
                       ALTARUM INSTITUTE

    Mr. Rhyan. Thank you, and good morning. Subcommittee 
Chairmen Walberg and Byrne, Subcommittee Ranking Members Sablan 
and Takano, and distinguished members of the Committee, thank 
you for the invitation today to testify on the current state of 
the opioid epidemic and the direct impacts we have observed on 
employers and the workplace.
    My name is Corwin Ryan; I am a senior health care policy 
analyst for Altarum, a nonprofit research and consulting 
institute headquartered in Ann Arbor, Michigan.
    In our work, we estimate the total nationwide economic 
burden of the opioid crisis exceeded $95 billion in 2016, 
including significant costs from losses in productivity and 
earnings, increased health care costs, and increased 
expenditures on criminal justice, child and family assistance, 
and education. Preliminary data for 2017 indicate this burden 
has continued to grow. The number of opioid-related overdose 
deaths in the 12 months prior to June 2017 were 20 percent 
higher than they were only a year before. If the epidemic 
continues to grow at its current rate, the total economic 
burden from 2017 through 2020 could exceed $500 billion for the 
entire United States.
    This epidemic impacts all parts of our society, but the 
combined impacts on households and the private sector account 
for the largest share of the societal burden and exceeded $46 
billion in 2016. This finding elevates the importance of 
employers, both as stakeholders directly impacted by the 
crisis, but also as potential leaders in preventing its spread 
and helping support treatment and recovery.
    Through recent work in Lorain County, Ohio, we heard from 
community stakeholders about the local economic impacts this 
epidemic can cause. Employers there are acutely aware of the 
impacts of opioids and they expressed repeatedly that they are 
having difficulty finding qualified candidates who can pass a 
drug test to fill local job openings. They have responded in 
some cases by changing their hiring and employment practices to 
increase the pool of potential employees. We have observed 
employers that are now more likely to consider candidates who 
have recovered or are recovering from a substance use disorder. 
They are also reconsidering zero-tolerance policies for 
existing employees and are working to help provide treatment 
and recovery services. In the most extreme cases, we have even 
heard employers express the desire to simply no longer drug 
test their employees. We would also expect that if employers 
continue to struggle to find qualified applicants that they 
will substitute for greater levels of automation and make 
larger capital investments.
    Many employers are also taking significant steps to improve 
the availability of treatment and recovery services. These 
businesses should be applauded for their efforts, supported in 
pursuing better care for their employees, and empowered to find 
the best solutions for their specific situations. Ensuring 
access to high quality evidence based treatment and recovery 
services through an employer can prevent overdoses and deaths. 
Employers should be given the flexibility to design and 
implement interventions that fit their employee population 
needs and work within available community resources, provided 
that evidence based practices inform their actions.
    Employers can also embrace their role as a key player in 
efforts to prevent future opioid abuses and addiction. They can 
offer prescription drug disposal sites and can work with 
insurers and third-party administrators to help cut unnecessary 
opioid prescriptions. When possible, employers should 
disseminate and share outcomes of their efforts to the broader 
employer community to help inform best practices.
    Finally, employers can also support caregivers, co-workers, 
friends, and family members of those suffering from addiction. 
All will need flexibility and resources so they can guide 
individuals through treatment and recovery.
    These Subcommittees should be applauded for their 
initiative to investigate the impacts of the opioid crisis on 
employers and the workforce. We have shown that employers are 
negatively impacted by the crisis, but can and will be at the 
forefront of implementing pivotal solutions to prevent and 
treat opioid addictions. Public policy should seek to give 
employers the resources they need to be an active and engaged 
ally in the fight against addiction, and allow them flexibility 
where needed to customize their responses. Including and 
empowering employers will go a long way toward accelerating the 
development and implementation of solutions to this nationwide 
epidemic.
    Thank you for the opportunity to present today. I look 
forward to any questions you may have.
    [The statement of Mr. Rhyan follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Walberg. Thank you. I recognize Ms. Allen for your 
five minutes of testimony. Welcome.

 TESTIMONY OF LISA ALLEN, PRESIDENT & CEO, ZIEGENFELDER COMPANY

    Ms. Allen. Thank you. Chairmen Walberg and Byrne, Ranking 
Members Takano and Sablan, and distinguished members of the 
Subcommittee, thank you for inviting me to testify before you 
today.
    I am here today to talk about our efforts to employ in our 
commitment as a company to help individuals rebuild their 
lives. My name is Lisa Allen and I am the president and CEO of 
the Ziegenfelder Company, a privately held, family-owned 
business located in Wheeling, West Virginia. We make people 
smile with really cool treats and manufacture twin pops and 
other frozen items. I am honored to speak to you today on 
behalf of the U.S. Chamber of Commerce.
    A quick snapshot of our company. In 1860, Ziegenfelder 
started out as a neighborhood candy store located just across 
the street from where we are located today. My grandfather, Abe 
Lando, began working for the company after World War II and in 
1960 my family fully purchased the company. Although the 
company struggled financially for years, my father was able to 
turn the business around by developing Budget Saver twin pops. 
By reducing the expenses associated with the dairy industry and 
packaging the product in clear bags rather than traditional 
boxes, we were able to invest more in the company. Now, with 
three manufacturing facilities operating 24 hours a day, seven 
days a week, we make nearly 2.5 million twin pops every 24 
hours. Today, our products are in grocery stores nationwide in 
nearly every community across the country. Last year, we 
proudly placed over 40 million bags of pops in homes across 
America.
    While we are proud of this recent growth, the source of my 
pride comes from our team of employees we call a tribe. We call 
ourselves a tribe because we are individuals, families, and a 
community linked by our culture and our bright, vivid vision. 
And let me be clear, our growth has been possible because of 
our awesome tribe, which has grown from 65 to over 300 tribe 
members across the country.
    All members of our Ziggy tribe benefit from committed, 
compassionate hiring practices, which we expanded several years 
ago. These practices developed out of a realization following a 
chance conversation with a friend of mine from the U.S. 
District Attorney's Office. Apparently we had hired some of our 
tribe from a local halfway house, individuals who were in the 
midst of rebuilding their lives. After realizing this, we chose 
to become more intentional with respect to hiring specific 
populations, such as reentering citizens, veterans, and the 
homeless; all or none of whom could include recovering drug 
addicts, many of whom are in the throes of the opioid 
addiction.
    As I am sure other witnesses have said before, I have a lot 
to say on this topic at hand. There are many stories of how our 
tribe members have been directly and indirectly impacted by the 
opioid crisis, some of which I have detailed in my written 
testimony. Perhaps the best way to tell our story in the five 
minutes I have is to share with you one of the many stories. 
One of our most valued tribe member leaders is Sonny Baxter. 
The day after he came home in August of 2015, he joined our 
tribe. We didn't know then about his time before joining our 
trip, nor did we know how much more he would achieve 
afterwards. It turns out he came home after a 10 year prison 
sentence after his arrest at age 19 for possession with intent 
to distribute. While he was serving his sentence, he studied 
coding and training to become an addiction counselor in the 
hopes of helping others. In Sonny's words, ``I was part of the 
problem,'' and now he is part of the solution. During the two 
and a half years he has worked as a full-time member of our 
tribe, Sonny earned his associate's degree in software 
engineering from West Virginia Northern Community College just 
this past December. He recently applied to the Organizational 
Leadership Program at West Liberty University and is not only a 
full-time employee with us and the lead operator, he also works 
as a tech support at Wheeling Jesuit University. He has 
purchased a condo, he has a car, and he is using his training 
to help other members of our tribe who are recovering and 
reentering the workforce. With his help, our culture has become 
self-perpetuating. We believe that a job is absolutely the best 
antidote.
    Another of our tribe leaders, Tanner Defilbaugh, who also 
rebuilt his life following opioid addiction and incarceration, 
articulates it so well, ``It's easier to do the right thing 
when you are working and you have a steady job and you have a 
purpose.'' It is an honor to be part of such a tremendous group 
of people and humbling to think of some of the challenges that 
they and other members of our community and nation have endured 
and overcome.
    It sounds corny, but I think of the starfish parable. There 
are thousands of people that are in need of help in communities 
across this great nation. It's hard to help them all. But to 
each person that we're able to help, we make a difference. I 
truly believe, one by one, we are making a difference.
    Thank you for this opportunity to testify and I look 
forward to your questions.
    [The statement of Ms. Allen follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Walberg. Thank you for your testimony. And I guess 
I should say I thank you for addicting my grandkids to twin 
pops. (Laughter)
    Ms. Allen. And I thank you for purchasing them, sir.
    Chairman Walberg. It is a better addiction than anything 
else.
    Ms. Allen. Absolutely. Have at it.
    Chairman Walberg. Okay.
    Ms. Allen. Thank you.
    Chairman Walberg. And I will recognize Dr. Andrews for your 
five minutes of testimony.

 TESTIMONY OF CHRISTINA M. ANDREWS, PHD, ASSISTANT PROFESSOR, 
                  UNIVERSITY OF SOUTH CAROLINA

    Dr. Andrews. Subcommittee Chairmen Walberg and Byrne, 
Ranking Members Sablan and Takano, and distinguished members of 
the Committee, thank you for the opportunity to speak with you.
    I am a professor at the University of South Carolina and 
have spent the past decade researching how we can improve 
access to opioid use disorder treatment in the United States. 
Without question, the opioid epidemic is having a profound 
impact on our nation. We are now losing more people to opioid 
overdose than to AIDS in the height of that epidemic. And we 
will have lost 10 Americans to a fatal opioid overdose by the 
conclusion of this hearing today.
    The human cost of addiction and overdose is accompanied by 
a substantial financial price. In 2013 alone, expenses related 
to opioid use were estimated to be $79 billion. The epidemic 
presents new challenges for our economy. Reports from employers 
across the country tell a similar tale, opioid misuse is 
impairing their ability to hire and retain qualified workers. 
The Fed recently identified the epidemic as an emerging threat 
to economic growth. In its ``Beige Book: A Summary of Regional 
Economic Conditions,'' officials point to a concerning number 
of employers who are reporting difficulty finding qualified 
employees who are drug free.
    The research indicates a strong link between opioids and 
labor force participation. More prescriptions, more 
unemployment. The proportion of prime age men in the workforce 
has reached a historic low. Among those age 25-54 who are 
unemployed, a staggering 50 percent report taking pain 
medication on a regular basis, in most cases prescription 
drugs. About 70 percent of employers report negative 
consequences of opioid use, including absenteeism and drug use 
on the job.
    The most effective strategy to address these challenges is 
expansion of treatments. Decades of research have established 
that opioid addiction is a chronic disease and it can be 
treated effectively with a combination of medication and 
psychosocial intervention. Workers struggling with addiction 
must be connected to treatment so that they can achieve 
recovery and remain employed. Those who have dropped out of the 
workforce due to addiction must also receive treatment so that 
they can get back to work. This is the only realistic way to 
increase the supply of qualified workers. Drug testing is not 
an effective deterrent for people who have the disease of 
addiction. Treatment is the most evidence based approach to 
reduce opioid misuse in the workplace.
    How can we increase treatment? Let me share with you 
several recommendations, many of which come from the Opioid 
Commission appointed by President Trump. First, protect the 
Medicaid expansion and the health insurance exchanges. The 
Affordable Care Act has extended health insurance coverage to 
nearly 1 million people with opioid use disorders. Many are in 
the workforce. If the law were repealed, nearly one-third of 
all Americans with an opioid use disorder would suddenly lose 
access to lifesaving treatments. Medicaid waivers that impose 
work requirements could force beneficiaries to quit treatment 
in order to maintain coverage. Second, actively enforce parity 
regulations established under the Mental Health Parity and 
Addiction Equity Act of 2008. For employers to help their 
workers get the treatment they need we must ensure that their 
health plans provide equitable access to opioid use disorder 
treatment. Third, we need to uphold regulations on association 
health plans. The proposed rule issued by the Department of 
Labor last month would allow for the proliferation of poorly 
regulated health plans that are subject to few consumer 
protections. We must not allow Americans to spend their money 
on health plans that may not provide coverage for opioid use 
disorder treatment should they or a family member need it. 
Fourth, rapidly expand the distribution of naloxone, a 
lifesaving overdose reversal drug. We must get naloxone into 
every hospital, school, and local police station in the 
country. Thousands of lives can be saved by taking this step 
alone. Finally, increase prevention efforts. This includes 
better regulation of opioid prescribing, expanded options for 
safe disposal, support for effective non-opioid approaches to 
pain management, and expansion of injury prevention programs to 
reduce the need for pain medications.
    I applaud Congress for including an additional $6 billion 
over two years in the recent budget agreement for treatment of 
opioid use disorder. However, given the magnitude of the 
crisis, more funding is needed. It is crucial that these funds 
be directed specifically towards the purchase of naloxone, as 
well as evidence based treatment, such as buprenorphine and 
extended release naltrexone. Greater resources are going to be 
absolutely crucial to enable our states and our local 
communities to mount an effective response to this deadly 
epidemic.
    Thank you for your time. I look forward to your comments 
and questions.
    [The statement of Dr. Andrews follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Walberg. We thank you. I recognize Ms. Russo for 
your five minutes of testimony.

  TESTIMONY OF KATHRYN J. RUSSO, PRINCIPAL, JACKSON LEWIS P.C.

    Ms. Russo. Chairmen Walberg and Byrne, Ranking Members 
Sablan and Takano, and distinguished members of the 
Subcommittees, thank you for inviting me to testify here today.
    My name is Kathryn Russo and I'm an attorney at Jackson 
Lewis where I manage the Drug Testing and Substance Abuse 
Management Practice Group. My practice consists of advising 
employers on drug and alcohol issues that arise in the 
workplace, including drug testing and disability management 
issues. Many employers I work with are struggling with the 
workplace impacts of opioid addiction, including issues such as 
increased work-related accidents and injuries, increased 
employee turnover, and increased workers compensation costs. An 
employer may learn that an employee is using opioids when an 
employee voluntarily discloses that he is using prescription 
painkillers or that he is addicted to opioids. Alternatively, 
the employee may test positive for opioids on a workplace drug 
test. The way that an employer responds to each of these 
situations depends on whether the employee can be characterized 
as disabled for purposes of federal and state discrimination 
laws. Current users of illegal drugs, including those who use 
prescription drugs without a valid prescription, are not 
protected as disabled under federal and state laws. This is why 
an employer can take disciplinary action against an employee 
who uses illegal drugs or tests positive for illegal drugs on a 
workplace drug test. But when an employee is using prescription 
medication to treat an illness or is recovering or recovered 
from a substance abuse problem, the employee is disabled under 
the Americans with Disabilities Act and comparable state laws. 
These laws require employers to offer disabled employees 
accommodations in certain circumstances. For example, when an 
employee voluntarily discloses that she has an opioid addiction 
and needs help, employers typically offer accommodations that 
might consist of a medical leave of absence to obtain 
evaluation and treatment or a change in the employee's work 
hours so that she can go to treatment sessions. Many employers 
have employee assistance programs that allow employees to seek 
confidential assistance with substance abuse problems.
    While employers are willing to help employees who disclose 
opioid addiction, they also must manage employee misconduct 
arising from illegal opioid use. Drug testing is an important 
tool used by employers to detect illegal drug use. I am seeing 
an increase in the number of employers who conduct drug 
testing, an increase in the number of drugs that employers test 
for, as well as an increase in the types of tests that are 
being conducted. Employers who conduct drug testing commonly 
use a ``five-panel'' drug test, indicating that five categories 
of drugs will be tested. In a typical five-panel drug test, 
however, the only opioids tested for are heroin, morphine, and 
codeine. Because of the prescription painkiller epidemic, many 
employers have concluded that a five-panel test is 
insufficient. And so employers increasingly are utilizing 
larger drug testing panels that include synthetic and semi-
synthetic opioids.
    Employers increasingly are using post-accident testing and 
random testing to promote drug free workplaces. Random testing 
is a particularly useful tool for employers because it is 
unannounced and unexpected. Post-accident testing is also a 
very useful tool for employers to help rule out whether an 
employee had drugs in his system at the time of the accident. 
However, the U.S. Department of Labor's Occupational Safety and 
Health Administration's recent statements concerning post-
accident drug testing have been a source of confusion and 
frustration for employers. In May 2016, OSHA stated in the 
preamble to its final rule on electronic record keeping that 
employers are prohibited from using drug testing as a form of 
adverse action against employees who report injuries or 
illnesses. In a subsequent memorandum, OSHA explained that 
post-accident drug testing may be permissible where there is a 
reasonable basis that drugs or alcohol could have contributed 
to the injury or illness. This standard is confusing to most 
employers. Many employers believe that OSHA now requires 
reasonable suspicion in order to test, while other employers 
have stated that they don't know what the rule means.
    Employers have complained that this post-accident standard 
first appeared in the preamble to an electronic record keeping 
rule and that there is no formal OSHA regulation addressing 
drug testing that employers were permitted to comment on before 
the rule took effect. Many employers believe that drug testing 
is an issue that is already regulated by many other federal, 
state, and local laws and that OSHA's position on this topic 
unnecessarily complicates the already complicated arena of 
workplace drug testing.
    I appreciate the opportunity to share my thoughts with the 
Committee.
    [The statement of Ms. Russo follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Walberg. Thank you. And thank you to each of the 
witnesses and trust that my colleagues and myself will note how 
well you all kept to the time limits, and may we do the same.
    I recognize myself now for my five minutes of questions.
    Mr. Rhyan, I noted earlier that today in our modern world 
we often spend more time with our co-workers than we do with 
anyone else, including our families. What role can you suggest 
that employers could play in supporting substance abuse 
recovery in the workplaces and in their communities?
    Mr. Rhyan. Absolutely. It's very important to consider the 
role of the employers. As you mentioned, there's a significant 
amount of time that individuals spend there and also the key 
role that employers play for the majority--in cases of 
providing insurance. And as a result, making sure that they are 
aware of the services that they can provide and they make them 
available to their employees. So, through that role, it is very 
important for employers to both make their employees aware of 
what services are available and also make sure that they get 
access to them when needed and in the best case possible.
    Chairman Walberg. On the other side of the ledger, what can 
employees do as part of this process as well in the workplace 
and in their communities?
    Mr. Rhyan. Yeah. I think employees can take an active role 
to work with their colleagues and certainly be aware of issues 
that become available. We know that having a good support 
system is really important for those trying to recover from an 
opioid addiction and so certainly employees being aware of, and 
being there for other individuals is very important.
    Chairman Walberg. Ms. Russo, you noted in your testimony 
there could be a situation in which an employee has a legal 
prescription for opioids and then tests positive during a drug 
test. In that case, would the employer be notified by the drug 
testing facility of the employee's opioid use?
    Ms. Russo. Typically no. So what happens is when the drug 
testing facility gets a positive test result, they send it to a 
medical review officer, who is a licensed physician, to analyze 
whether this is lawful or illegal drug use. If the medical 
review officer is satisfied that the person had a valid 
prescription, it will usually get reported to the employer as a 
negative. However, sometimes in very dangerous industries, I've 
seen arrangements where the medical review officer will flag it 
for the employer, just to note there may be a safety issue 
without disclosing what the issue is. And then the employer 
then has the obligation to talk to the employee to find out, 
you know, what's the situation, we think there may be a safety 
issue, and to work it out, just to make sure that the employee 
can use their medication and work safely in the workplace.
    Chairman Walberg. And there isn't a legal problem with 
doing that for the employer if they follow certain prescribed?
    Ms. Russo. No, that's correct; they can do that.
    Chairman Walberg. With prescription drugs?
    Ms. Russo. Yes.
    Chairman Walberg. Okay. Because, you know, as you 
mentioned, that five-points test, that does cause a bit of a 
problem when you are dealing with such an expansive problem 
that goes from opioids to heroin and back and forth at times.
    Ms. Russo. That's correct. Because, if an employee tests 
positive for opioids, the employer isn't going to know. Is it 
because of heroin or because they're using a prescription drug? 
So that's why there's this mechanism to have a medical review 
officer to review it to determine whether this is pursuant to a 
valid prescription or whether it's an illegal drug.
    Chairman Walberg. Okay. Mr. Rhyan, you stated that health 
care costs related to opioid crisis from 2001	2017 were almost 
$216 billion, stemming largely from emergency room visits to 
treat and stabilize patients after an overdose and associated 
costs. In your opinion, would earlier interventions to address 
opioid abuse help to decrease these associated health care 
costs and keep employees participating in the workforce?
    Mr. Rhyan. Yes, absolutely. There's two components to that. 
Certainly the first is preventing an opioid substance use 
disorder before it occurs. Because obviously any steps that can 
be taken to limit the excessive amounts of opioids that might 
be prescribed initially or any other steps that can be taken to 
decrease the likelihood that somebody develops a substance use 
disorder will prevent those adverse outcomes, such as emergency 
department visits, hospitalizations, or any downstream 
increased healthcare costs associated with diseases such as 
HIV, hepatitis B, hepatitis C, all of which we know are related 
to opioid substance use disorders and illegal drug use.
    The other component, that is of course providing treatment 
once we can identify those that have a substance use disorder. 
So, if we can provide better treatment and recovery services 
early on, we can prevent individuals from falling into those 
most severe outcomes. And that absolutely will cut healthcare 
costs on the front end if we can do that.
    Chairman Walberg. Thank you. My time has expired. I now re-
present my friend and ranking member, Mr. Sablan.
    Mr. Sablan. Yeah, thank you. Thank you very much again, Mr. 
Chairman, for today's hearing.
    I have a question--actually two questions, Dr. Andrews, if 
I may. Thank you again for taking the time to testify today to 
all the witnesses.
    So, Dr. Andrews, can you discuss any gaps in access to 
substance use disorder treatment, especially in workplace 
health care coverage? For example, how does treatment access 
differ for blue collar workers as opposed to white collar 
workers? Does it differ across racial groups or socioeconomic 
groups?
    Dr. Andrews. Absolutely. Currently in the United States 
only about 10 percent of people with a substance use disorder 
ever receive any treatment for their condition. So that means 
we have about 90 percent of Americans who have an active 
substance use disorder and are not receiving treatment for 
their condition. The reasons for that are multifaceted and 
complex. Insurance access to treatment is an incredibly 
important aspect of it, as patients who report that they sought 
treatment but were unable to receive it indicate time and time 
again that financial barriers were key to their inability to 
access treatment. People in white-collar professions typically 
have greater likelihood of having a private insurance plan that 
offers higher reimbursement rates, that opens doors to entry 
into a greater number of addiction treatment programs. So, more 
choices means more likelihood of being able to enter treatment. 
People in blue-collar professions, maybe working in fields 
where whether it's in the restaurant service industry or 
different areas of manufacturing or construction, where 
insurance benefits may not exist or they may be less generous 
and--
    Mr. Sablan. I mean what about does it differ across racial 
groups or socioeconomic groups? You have alluded to the 
socioeconomic group, but the racial groups?
    Dr. Andrews. Right, right. While racial and ethnic minority 
groups do not use substances any more than whites--similar 
rates of use--they tend to access treatment less frequently. 
And there are a number of reasons for that, but again, 
insurance access, geographic access to treatment, barriers 
related to other challenges they may be facing related to 
employment, childcare, transportation, and the ability to 
access culturally and linguistically competent care are also 
key.
    Mr. Sablan. So you also testified, Dr. Andrews, that 
increased prevention efforts could stem the opioid crisis. The 
need for pain medication after a workplace-related injury or 
illness is often the gateway to addiction. Can you comment--we 
have a minute and a half--on what some of those workplace 
prevention programs might include and whether there are ways we 
can address the prescription of opioids in the workman's 
compensation system?
    Dr. Andrews. Right, absolutely. The research suggests that 
there is a really strong connection between working in 
industries that have high levels of injury. When people have an 
injury they're much more likely to receive opioid 
prescriptions, and when they receive opioid prescriptions they 
are at greater likelihood of developing an opioid use disorder 
as a result. So one of the upstream prevention strategies that 
we can use to try to break this sort of domino effect before it 
begins is illness and injury prevention programs, particularly 
those offered by OSHA, that can try to minimize the likelihood 
of those injuries from happening and the need for pain 
medication moving forward.
    Mr. Sablan. Ms. Russo, let me just ask you because you sort 
of mentioned and I am trying to understand. I have very little 
time, but when a person in the workplace is tested and it comes 
back positive, does the result show it, whether it is 
prescription drugs or heroin, for example? Or does it just show 
as positive?
    Ms. Russo. The result that the employer gets will usually 
just say positive and then it will show the category, cocaine, 
opioids, whatever it is. If the person is using a valid 
prescription it will already have been screened by the medical 
review officer who will then make it into a negative, so the 
employer won't know.
    Mr. Sablan. All right. Thank you, Ms. Russo. Thank you, Mr. 
Chairman.
    Chairman Walberg. I now recognize the chairman of the 
Workforce Protections Subcommittee and co-chairman of this 
hearing, Mr. Byrne from Alabama.
    Mr. Byrne. Thank you, Mr. Chairman. Thank you, ladies and 
gentlemen, for being here today. Very important topic.
    Ms. Russo, in my prior life I was an attorney who 
represented management, so this would come up not infrequently 
in conversations I would have with my clients. And I would 
inevitably have to talk with them about the Americans with 
Disabilities Act. So if you would please expand on--I know you 
have touched on this a little bit--expand on, first of all, 
what protections the employee has under the Americans with 
Disabilities Act in this particular environment, but also, most 
importantly, what the employer is permitted to do.
    Ms. Russo. Okay. So there's really two ways I think in the 
context of drug use that an employee would be protected under 
the Americans with Disabilities Act. So some employers will ask 
employees to disclose the use of prescription medication if 
they're in a very dangerous job. Generally, an employer would 
not ask that question, but to promote workplace safety they may 
ask people in very dangerous jobs to report it so that the 
employer can have a discussion with them about how can we 
accommodate it and make sure that you can do your job safely. 
That's one potential context that it may come up.
    The other one is that recovering and recovered substance 
abusers are protected as disabled. So if an employee comes 
forward and says, ``I have a problem. I need help,'' then they 
are now protected as disabled. The employer then would consider 
a reasonable accommodation, which in this instance typically 
means a leave of absence. So we would give them a leave of 
absence to go for evaluation and treatment. They might be 
eligible for a leave under the Family and Medical Leave Act. 
Even if they're not eligible, there may be other policies that 
the employer has that they can take advantage of. But in that 
instance, they would be--you know their substance dependence 
would be the illness that's protected. So the employer would 
not take adverse action against them.
    Mr. Byrne. Ms. Allen, I wanted to talk to you too about 
your testimony. I think you mentioned that when your employees 
are in trouble, many of them come to the company's leadership 
and ask for help. This is not the case in all workplaces. I am 
sure you know that. And not all employees feel comfortable 
talking about these issues with their bosses, the people that 
they work under. How did you first begin to reduce that stigma 
that surrounds opioid abuse within your workplace to create a 
community of acceptance and support?
    Ms. Allen. Well, thank you for the question. I would have 
to say that in our organization we all interact together. The 
folks that have worked with us, we have people who have been 
with us for 30 years and somebody new walked in the door today, 
I'm sure, in all three of our facilities. And we believe in 
close communication. We believe in observing each other, being 
friends, being family. When somebody--I think I said in my 
testimony--when somebody in our company hurts, we all hurt. So 
we grow. It's a small community. Wheeling, West Virginia is a 
small community. We grow up together. A lot of people have 
grown up together. We attend weddings. We attend funerals. So 
we know each other. And if we don't, then others do. And we 
communicate and we share. Just about every one of our shift 
changes in our facilities we try to have somebody on the floor 
saying, ``Hi, how are you doing? What's new?'' And, when 
somebody walks in the door, and goes straight to the telephone, 
and picks up the telephone, and makes a call, and puts it down, 
that used to tell us that person came from the halfway house, 
because they had to report in. And then, after their shift, 
they'd pick up the phone, make a call, and head out the door. 
And so it's just what we begin to observe. It's the culture 
that we create inside our company, and we talk about it. We 
communicate.
    Mr. Byrne. And talk also about the leadership, because 
everything starts at the top. So how does the leadership of an 
organization, whether it is a private sector company or 
anywhere else, how does the leadership communicate that to 
create that sort of culture?
    Ms. Allen. By leading. And I don't mean to be disrespectful 
with that comment, but leadership is about taking care of 
people in your fold. It's about inspiring people to grow and to 
develop and to do the right thing. It's about having 
influential behavior so that others can model that behavior and 
feel comfortable modeling that behavior. In our culture, we 
communicate together. We work together. And as I stand in front 
of our company, I encourage other leaders in our company to 
stand in front of all of our folks and recognize that we're 
just like the rest of the people inside our company, it makes 
it a safe environment. It makes it a non-threatening 
environment. It makes it an environment where people can feel a 
little vulnerable to say, ``Can I talk to you for a minute?''
    My door is always open. Our leadership, the rest of our 
leadership team, our doors are always open and we're there to 
help. What that also does for us, quite frankly, is it builds a 
strong community inside of our company and it makes us 
hopefully a model for other businesses to recognize the same.
    Mr. Byrne. Thank you. My time is up. I yield back.
    [The statement of Chairman Byrne follows:]

  Prepared Statement of Hon. Bradley Byrne, Chairman, Subcommittee on 
                         Workforce Protections

    Good morning, and thank you Chairman Walberg for beginning today's 
joint subcommittee hearing.
    I'm pleased to be joining our witnesses and members of both 
subcommittees as we continue the discussion on the impact the opioid 
epidemic is having on American communities and workplaces.
    The alarming increase in the abuse and misuse of opioids is a 
matter of great national concern, and I am pleased that Congress and 
the private sector are having these discussions and actively looking 
for ways to reverse the damage of opioids in our communities.
    One of the most alarming aspects of this epidemic is that misuse 
and abuse of opioids can happen so quickly, and often begins with 
prescription medication.
    My home state of Alabama is not immune from this troubling 
development. Alabama ranks first in the nation in the number of 
painkiller prescriptions per capita, with more than 5.8 million opioid 
prescriptions written in 2015. That's more than 1.2 prescriptions per 
person.
    An unfortunate reality is that this epidemic is happening to our 
coworkers, and in business communities large and small. Employers and 
employees alike are seeing the personal and economic toll this epidemic 
is having.
    Only now are we grasping the tragic statistics that illustrate the 
impact this problem is having on the American workforce. According to 
one recent estimate, opioid abuse costs employers $18 billion per year 
in sick days and medical expenses.
    It is troubling to hear that workplaces around the country have 
been affected by opioid misuse and addiction. But increased costs are 
not the most troubling way this epidemic has impacted the workplace. 
According to the Bureau of Labor Statistics, the number of overdose 
fatalities on the job has increased by at least 25 percent annually 
since 2012.
    These facts are alarming because they show that employees who abuse 
drugs, like opioids, are creating unintended consequences for their 
fellow coworkers.
    Those who misuse any illicit substance while at work are creating a 
risky environment, and that can also lead to workplace incidents where 
other employees could be hurt on the job.
    Employers are recognizing the risks that opioid abuse has on the 
workplace, and it is reassuring to hear that businesses large and small 
are taking steps to address this problem in their organizations.
    It is encouraging to hear that more employers are looking for ways 
to identify, educate, and assist employees who struggle with opioid 
abuse and addiction. Employee Assistance Programs are a great tool to 
help employees get the resources they need to start on the road to 
recovery. I do believe more can and should be done to make employees 
more aware of these resources before it is too late.
    Employers and fellow coworkers play a pivotal role in keeping 
workplaces safe across the country. I join my colleagues in cautioning 
the federal government from taking broad and sweeping action to create 
unnecessary bureaucratic mandates that would inhibit employers who know 
what programs work best for their individual employees.
    Our witnesses today have proven that they are uniquely positioned 
to tell us more about how companies are adopting and executing new best 
practices to combat this tragic epidemic in our communities. I would 
like to thank the witnesses for sharing their stories about how the 
opioid epidemic affects the workplace, as well as what they are doing 
to help solve this problem.
    Working together with government, businesses, nonprofits, and local 
communities, I am hopeful we can bring an end to the opioid epidemic.
                                 ______
                                 
    Chairman Walberg. I thank the gentleman. I recognize now 
the ranking member on the Workforce Protections Subcommittee, 
Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman. I appreciate this 
opportunity to question our witnesses.
    My first questions are for Dr. Christina Andrews. Dr. 
Andrews, we know that access to health insurance coverage often 
makes the difference between whether someone seeks healthcare 
or foregoes it. Can you discuss the impact of the Affordable 
Care Act on the ability of patients to access substance use 
disorder treatment?
    Dr. Andrews. Certainly. The Medicaid expansion has been an 
absolutely critical tool used by states in order to improve 
access to opioid use disorder treatment. As I mentioned in my 
statement, roughly one-third of people who are living in the 
United States who have an opioid use disorder have access to 
insurance, either through Medicaid or through the newly 
established health insurance exchanges. And that enables them 
to access lifesaving treatment for their condition, most 
notably medications like buprenorphine and extended release 
naltrexone, which have been shown to dramatically reduce risk 
of overdose and death.
    In our research that we've done with stakeholders in 10 
states throughout the United States these leaders have 
indicated time and time again that a big part of their decision 
to expand Medicaid was related to the opioid epidemic and that 
they wanted to use every policy tool they had available to them 
in order to address this disorder because they were seeing the 
devastation that it was causing in their communities.
    Mr. Takano. So Medicaid has been an extremely, extremely 
important tool in addressing opioid addictions?
    Dr. Andrews. Absolutely.
    Mr. Takano. Well, the budget proposal released earlier this 
week calls for huge cuts to Medicaid funding, what will these 
cuts do to coverage?
    Dr. Andrews. Cuts to Medicaid in the midst of an escalating 
opioid epidemic could result in lost lives. I think that 
Medicaid being such an important tool for responding to this 
epidemic and getting treatment for people who need it make it 
really key. And the research that we've been doing, as well as 
a lot of evidence that's been coming out over the past few 
years, suggests that Medicaid has played an extraordinarily 
important role in increasing access to opioid use disorders.
    Mr. Takano. I just want it to be clear to people out there 
that when the administration talks about cutting back or 
repealing and replacing the ACA, that Medicaid expansion was a 
huge part of the Affordable Care Act. So, you know, I could be 
using the word Affordable Care Act, but one big chunk of the 
Affordable Care Act was the expanded Medicaid, which allows for 
just a tremendous number of people, millions of people, gaining 
access to it, gaining access to this insurance, therefore also 
being able to address their opioid addictions.
    There seems to be the notion that those on Medicaid are not 
working. However, a majority of Medicaid recipients are 
working. And that is what the head of the Inland Empire--IEHP, 
which is the Medicaid plan in my area, my county, in Riverside 
County--he tells me that, you know, up to 60 percent of the 
people are working. Those that are not are either disabled or 
they are caregiving for somebody. But many of these folks are 
on low-wage jobs where coverage is not available otherwise and 
so Medicaid fills in that gap.
    How does Medicaid impact the health of a workplace?
    Dr. Andrews. Mm-hmm, absolutely. Yes, I read that report. 
Excellent work by the Kaiser Family Foundation looking at non-
elderly adults' participation in the workforce, and seeing 
upwards of 60 percent are already in the workforce. Those who 
are not able to be in the workforce, many of whom have 
substantial barriers to work. And one of the major ones is 
behavioral health disorders, including opioid use disorder 
treatment. So if we were to impose work requirements on this 
group of individuals it may force them to either quit treatment 
that they need to get well or it would force them to forgo 
treatment in order to maintain their health benefits.
    Mr. Takano. Very quickly, my time is running out. So really 
giving them access to the medical care, the Medicaid, actually 
will enable them to work.
    Dr. Andrews. Absolutely.
    Mr. Takano. And supporting the work requirement 
paradoxically would hamper their ability to get into the 
workforce?
    Dr. Andrews. Yes.
    Mr. Takano. Anyway, my time is up, Mr. Chairman, and thank 
you for the opportunity.
    Chairman Walberg. I thank the gentleman. Now I recognize 
our resident professor, Mr. Brat, from Virginia.
    Mr. Brat. Thank you, Chairman. Your words are prescient. I 
am going to--everyone is going off on the technical side and 
the policy side and the employer/employee side, so I am going 
to switch my comments a little. I really liked your comment on 
leadership. I think that is absolutely key. Back home I have a 
few leaders. Shinholser runs a foundation. My sheriff, Karl 
Leonard, in Chesterfield has a program that is so successful, 
when the inmates get out they come back in. They voluntarily 
come back in for treatment and recovery because the team and 
the spiritual bonds they formed are so powerful in helping them 
recover. And they realize this and they speak in those terms. 
And so that language, the inmates themselves use, ``I have a 
hole in my soul.'' That is their words. That is their language, 
right.
    And so today in the scientific world, and I taught 
economics and got a PhD, and et cetera. It is hard to quantify 
the soul, right. Not good stuff on that. So I will not bore you 
with going back to Plato and Aristotle. But a lot of ethics, 
for example, there is not data points on ethics. So terms like 
``the good,'' you can't measure it. It is important, I think. 
Science, right. You can't prove science exists because it is an 
idea. And yet, I think all of you on this panel agree that 
science exists. And so this has a long pedigree in the history 
of philosophy. And so have we overdone it on the drugs and the 
treatments and the professionalism and missed the boat a little 
bit in terms of ``Hey, I got a hole in my soul. These people 
are helping me deal with that,'' is there anything going on in 
the literature? And if you all just want to take a quick crack 
at it, you get 45 seconds each according to the clock.
    Let us start with Mr. Rhyan.
    Mr. Rhyan. I think we very much need to look at solving 
this problem with a holistic approach. And so it's really both/
and because you need both evidence-based treatment services, 
which have been established to work very well, and you also 
need to look at the individual. And certainly taking the 
approach of doing the care one individual at a time is really 
the best way to solve this problem. But that can be informed by 
the research as well. It's really both.
    Mr. Brat. Ms. Allen?
    Ms. Allen. Well, thank you, Congressman, for your question. 
I don't know the research. I don't do the research; we make 
popsicles. But we believe in people and we believe in the 
resiliency of the human spirit. And we have peer groups, 
informal peer groups inside our company that are friends with 
each other and they recognize problems and they work together. 
And I don't know, thankfully, because--I'm thankful because 
that's the way an organization should operate. I don't know all 
of the things that happen, but I know that they happen because 
people care about each other. And when you create that kind of 
an environment, I personally believe a lot of the statistics 
would take care of themselves.
    Mr. Brat. Thank you. Professor?
    Dr. Andrews. Well, the importance of human connection 
cannot be argued. And I really appreciate that comment. I think 
it's central to what we're doing. It must be a multifaceted 
approach. We need resources to buy naloxone because naloxone 
can save somebody who has experienced an overdose from dying. 
We need resources for medications like buprenorphine and 
extended release naltrexone. A recent evaluation coming out of 
Vermont, where they've been doing some excellent work around 
addressing the opioid epidemic, showed that providing that drug 
along with the kind of psychosocial support reduced use of 
opioids from 86 out of 90 days when people were coming down to 
only three days on average; the vast majority of people making 
huge improvements. And as the evidence suggests, we have the 
tools to solve these problems. We need to put the resources to 
getting them out to everyone who needs them.
    Mr. Brat. Super. Ms. Russo?
    Ms. Russo. I'm seeing more employers offering that kind of 
support to their employees, putting employee assistance plans 
in place, making sure they know about it, making sure that they 
know where in their geographical area they can go for help, you 
know, having strong policies, letting people know that you can 
take a medical leave of absence if you need it. And the other 
thing that many employers do, is they don't always terminate 
somebody when they test positive on a drug test. They very 
often will give them an opportunity, get evaluated, you know, 
get help, and then come back to work. That's a very common 
thing.
    Mr. Brat. That is great. Thank you very much. Chairman, I 
yield back.
    Chairman Walberg. I thank the gentleman. I recognize the 
gentlelady from Ohio, Ms. Fudge.
    Ms. Fudge. Thank you very much, Mr. Chairman. And I am 
really happy that we are having this kumbaya moment right now, 
that we have such a religious group. I too am very religious 
and I thank you for praying the victims of the 18th school 
shooting this year. You know, the Bible tells us to watch as 
well as pray. So we should be knowing and talking about what is 
going on around us. The Bible tells us that we are our 
brother's keeper. The Bible tells us that we should take care 
of our children and what Jesus thinks about those who don't. 
You know, we talk about praying is enough, it is not enough. We 
talk about the mentally ill. There are mentally ill people in 
every industrialized nation in the world and there is no other 
country that has these kinds of shootings. You know why? 
Because they do not have access to weapons of mass destruction 
by way of assault rifles, AR-15s, AK-47s. They don't have them. 
That is the difference. Yet, we talk about mental health is the 
problem, but we defund mental health treatment, we defund 
counselors in schools. So you can't have it both ways. Either 
you care about these kids or you do not. Praying doesn't make 
it any different.
    Dr. Andrews, we know that it is not always what happens in 
the world, we know sometimes it is about who it happens to. So 
I remember very clearly when we had a war on drugs and a just 
say no, just because it was crack cocaine and it was affecting 
people in poor and minority and urban communities. Now we are 
all worried about opioids, which I am as well because it is 
ravaging my community, but because it is happening in rural 
communities, in wealthier communities. We talk about it but we 
don't put any money behind. We say we want people to get better 
but we won't pay to treat them. So please help me understand 
what is it that we can do as a Congress to make this situation 
better?
    Dr. Andrews. Absolutely. Thank you for the question. I 
think that one of the things that we learned from the crack 
cocaine epidemic and the war on drugs was that a strong law 
enforcement approach that does not also take seriously the 
importance of a public health perspective and the need for 
treatment is not successful. And it resulted in a mass 
incarceration of many individuals in urban and largely African-
American communities. And that resulted in devastating impacts 
for their children, their families, and their communities. And 
those are mistakes that we must not repeat. And I think that 
one of the things that is going to be most important moving 
forward is to reduce the stigma around opioid use and to 
connect people to treatment and to provide the resources that 
we need in order to do that successfully. And while I am very 
grateful for the funding that Congress has allocated through 
both the Cures Act as well as the recent budget agreement, 
addiction is a disease that is chronic in nature and that once 
somebody has the disease of addiction they will have to receive 
services to maintain their wellbeing for the rest of their 
lives. And so short-term funding initiatives that last one or 
two or three years will not address the problem in the long-
term. Insurance coverage to enable people to stay well is going 
to be really key.
    Ms. Fudge. Okay. Just quickly, is it going to help us at 
all if we say to these drug companies, stop marketing opioids 
to doctors' offices and paying them to distribute them? A lot 
of our doctors' offices have become drug dealers. Am I right?
    Dr. Andrews. While this is somewhat out of my area of 
expertise, I have certainly kept up with the reports and I 
think it has been a very problematic trend that these drugs 
have been marketed to physicians over a long period of time 
indicating that they are a safe--
    Ms. Fudge. Dr. Andrews, I am sorry to interrupt you, my 
time is really going.
    Dr. Andrews. That's all right.
    Ms. Fudge. So I think that we are going in the right 
direction. And I would just say to you that the next time 
somebody reports to you with an opioid problem tell them that 
our prayers and our thoughts are with them. See if it heals 
them.
    I yield back.
    Chairman Walberg. I thank the gentlelady and I recognize 
the distinguished chairperson of our full Education Workforce 
Committee, Mrs. Foxx.
    Mrs. Foxx. Thank you very much, Mr. Chairman, and thanks to 
you and Mr. Byrne for organizing this hearing, and also to all 
of the members of the panel. I think you can see this is a 
topic that unfortunately we have a great deal of interest in 
because we know it is impacting so many people. And we very 
much appreciate you all coming here today.
    Ms. Allen, thank you very much for talking about your 
personal experiences with the Committee today and thank you for 
taking steps in your business to decrease the stigma around 
prior drug use and give individuals a second chance. According 
to several studies, individuals who previously used opioids 
have the highest relapse rates of all substances, excluding 
alcohol. This suggests there is still much work to be done even 
after rehabilitation. At your company, what programs do you 
have in place that will help to decrease the likelihood of 
relapse?
    Ms. Allen. Thank you, Dr. Foxx, for your question. Specific 
programs in place, unfortunately, we don't at this time, but we 
have individual instances. Unfortunately, also, the failure 
rate is high, as you suggested. Once again, it's not formal, 
but we watch each other, we pay attention to each other. One 
example I can think of, and I believe is in my written 
testimony, is about an individual who we noticed slipping. We 
tried our best to have conversations. We connected him with an 
outside counselor. We have insurance services that will cover 
those things. But it's a slippery slope and it's a painful 
slope. And as Dr. Andrews suggested, it's a lifelong illness. 
It's an illness. And we were unable to help him and I believe 
he's incarcerated again.
    So we're working on it. It's a journey for us. And I have 
to thank the Committee, the Subcommittee for inviting me 
because out of this will come a lot more programs inside our 
company and inside our community as we learn as well.
    Mrs. Foxx. Thank you very much. Mr. Rhyan, many proactive 
responses to the opioid epidemic came out of necessity, 
starting at the local level. You mentioned the engagement of 
community stakeholders to discuss the local impact of the 
opioid epidemic in Lorain County, Ohio. Can you talk more about 
specific ways employers are getting involved in their local 
communities and how local leaders are playing an important role 
by coordinating with employers and others to address the opioid 
epidemic?
    Mr. Rhyan. Thank you. That's a very important question. And 
being aware of the local circumstances, not only of the 
problems that are going on within the community, but also what 
the resources available there are. Part of our project in 
Lorain County was to go and do an availability and services 
analysis and go out and actually look and say, ``What are the 
services that are available right now and where are they within 
the county?'' Because the services that are available don't 
always line up with where the needs are of the population. And 
so certainly employers that can be aware and make those 
connections ahead of time and be aware of where the needs are 
and then also where the solutions are and where the services 
are available is really important. And to be able to draw those 
connections for their employees as soon as possible helps 
expedite individuals into treatment and helps make that 
treatment more likely that it's going to stick and that they're 
going to actually continue through to recovery.
    Mrs. Foxx. So being prepared in case something happens you 
are saying?
    Mr. Rhyan. Yes, right, absolutely. This is certainly 
something that we need to--employers need to be ready for ahead 
of time. They can't be reactive to this problem anymore.
    Mrs. Foxx. All right. Ms. Russo, we heard Ms. Allen talk 
about how her company is providing resources and assistance to 
employees who are struggling with opioid abuse. What are some 
of the steps that you think that small businesses in particular 
can take, regardless of their size, to begin to address opioid 
abuse in their workplace? Are you familiar with other programs 
that you can share with us?
    Ms. Russo. I think training is a very important thing for 
employers to do, both of their supervisors and the employees. I 
think, you know, many employees don't really understand how 
addictive painkillers are, how dangerous it is if they are 
interacted with alcohol or other types of drugs. I think, you 
know, providing training to employees is helpful. Training 
supervisors on drug policies and how to address drug problems 
in the workplace, I think, is extraordinarily helpful because 
very often supervisors don't know what to do. Having clear 
medical leave policies is very important. Having employee 
assistance plans is very important. Consider changing your drug 
testing policy from terminating everyone, to offering them an 
opportunity to get treatment. Those are some of the things that 
I'm seeing employers do.
    Mrs. Foxx. Thank you very much. My time is up.
    Chairman Walberg. I thank the Chairwoman and I recognize 
the ranking member of the full Committee and gentleman from 
Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Chairman, you 
opened the hearing by talking about the tragedy in Florida and 
the need to do something about school shootings. So, Mr. 
Chairman, it is obvious that the Judiciary Committee is unable 
to hold hearings. They didn't hold hearings even after Sandy 
Hook. And I was wondering if this committee could hold 
hearings, particularly in light of the quote this morning in 
Politico where Secretary DeVos has encouraged Congress to hold 
hearings on school shootings. I was wondering if you could make 
a commitment to hold some hearings in this committee.
    Chairman Walberg. Well, I appreciate the question and I 
certainly will talk with the chairman of the full Committee, 
Ms. Foxx, about that and where we have authority and 
opportunity to assist and move forward in whatever area that 
comes under our jurisdiction. We are certainly open to that.
    Mr. Scott. Thank you, Mr. Chairman.
    Dr. Andrews, you indicated that drug testing is not an 
effective deterrent. Other testimony has suggested that it is a 
good strategy. Could you comment further on why drug testing is 
not an effective strategy to deal with the problem?
    Dr. Andrews. I'd be happy to. As I've mentioned previously, 
addiction is a disease. It is a chronic disease. And one of the 
symptoms of the disease is uncontrollable cravings for a 
substance. And as a result of that, the threat of a drug test 
or random drug testing would not necessarily be successful in 
keeping somebody from using because they have a physiological 
dependence on that substance. The best way to stop people from 
using opioids is to provide treatment, especially medication 
assisted treatment.
    Mr. Scott. Is that reality the reason why the criminal 
justice system as a response is a totally ineffective strategy 
from a cost effective basis?
    Dr. Andrews. Yes, I believe very strongly that a public 
health approach is needed to respond effectively to the opioid 
epidemic. Decades of research document that addiction is a 
disease and it requires treatment in order to help people to 
move into recovery and to maintain recovery.
    Over the past couple of decades science has made incredible 
advances in treatment and we now have medications, such as 
buprenorphine and naltrexone that are very effective in helping 
people to get well. And that has incredible benefits for 
employers who are able to retain people who've made valuable 
contributions to their company.
    Mr. Scott. As you have suggested, that treatment is not 
free and you said one-third of the people pay through the 
Affordable Care Act, either Medicaid expansion or the 
exchanges. One of the Affordable Care Act visions is a list of 
essential benefits where behavioral healthcare, including 
substance abuse treatment, is part of it. You mentioned the 
associated health plans that will allow plans to be written 
without the essential health benefits, how do other initiatives 
that eliminate or reduce the importance of essential health 
benefits, how do they affect the ability to afford substance 
abuse treatment?
    Dr. Andrews. Right. When people purchase a plan that 
doesn't include the consumer protection to cover substance use 
disorder treatment they can find themselves in a position where 
one of their or their family members needs lifesaving treatment 
for opioid use disorder and cannot afford to receive it. In 
those cases their only option is attempt to receive treatment 
from a safety net provider that is funded by federal and state 
block grants. But unfortunately those programs often have very 
long wait lists and people are required to wait weeks and 
months to receive treatment. And we simply do not have that 
kind of margin of error with this particular illness and the 
high risk of overdose and death that is associated with it.
    Mr. Scott. Thank you. And the Affordable Care Act also has 
a prohibition against considering preexisting conditions. If 
someone has had a long period of addiction and buys a policy, 
under present law they can get treatment. If the Affordable 
Care Act and all its protection are repealed, can you say what 
effect the loss of preexisting conditions protection would 
have?
    Dr. Andrews. When people who have an opioid use disorder 
are unable to access treatment due to financial barriers they 
will suffer, their children will suffer, their families will 
suffer. They will have risk of overdose and death as a result.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Walberg. I thank the gentleman. Now I recognize 
the gentleman from Wisconsin, Mr. Grothman.
    Mr. Grothman. Thank you. I was just looking a little bit 
about the tragedy yesterday in Florida and, at least if you can 
believe what they say on the internet, the shooter was 
receiving mental health treatment, which reminds us that mental 
health treatment is not all panacea. Sometimes it makes things 
better, sometimes it makes thing worse. You never know, but it 
is something we have got to remember.
    One of my senior staff had a relative who recently had a 
major surgery, was prescribed opiates and, per usual, more 
opiates than they would ever need. It is really a problem with 
the medical establishment, that they have overprescribed these 
things. But when his fellow co-workers found out that they had 
extra opiates they harassed him all the time for them, which is 
kind of amazing. And I wonder is this a common experience that 
you find, that employees who maybe were injured at one time or 
another get harassed by other employees looking for more 
opiates? Anybody heard of that being a problem? No, nobody has.
    Ms. Russo. I have.
    Mr. Grothman. Okay.
    Ms. Russo. I often counsel employers who are dealing with 
employee misconduct issues because they have got employees who 
are selling their oxycontin to co-workers at work. It is a very 
big problem for employers.
    Mr. Grothman. Okay. Yeah, it is a real problem with the 
medical community that they have over prescribed these things. 
And it shows no matter how long you go to school, it doesn't 
give you common sense.
    Next question I have, obviously there is a lot of treatment 
going on already and again and again you hear of people who 
have been in treatment lots of times and it doesn't succeed. So 
it would indicate to me that the last thing we want to do is 
throw money at treatment because, again, bad treatment is 
almost sometimes better than no treatment. Could anybody 
comment on the percentage of times people go in for treatment 
that they stop using opiates? Anybody have a comment on that in 
their experience, in their businesses? Does it work half the 
time, a tenth of the time, 90 percent of the time? Any 
comments?
    Dr. Andrews. I can speak to that. Before we had access to 
evidence-based medications for treatment of opioid use 
disorder, rates of recurrence of use were very high, upwards of 
80 percent. But with the introduction of buprenorphine and 
extended release naltrexone we are seeing much, much higher 
success rates in terms of people being able to maintain--to get 
into recovery and to maintain recovery.
    Mr. Grothman. I am going to cut you off because I have such 
a limited period of time. How many times do you have to use say 
an opiate, say heroin, to become addicted to heroin? Do you 
want to go right down the aisle and you can all give me a 
number?
    Mr. Rhyan. I'm not a medical professional so I don't think 
I should--
    Mr. Grothman. Nobody knows? Anybody have an opinion on 
that?
    Ms. Allen. I have no idea. I've never used opioids.
    Mr. Grothman. Okay, nobody knows.
    Ms. Allen. But I have heard that it doesn't take more than 
once. I've heard people say that the only difference between 
them and me or you is one decision.
    Mr. Grothman. Well, I am not sure that is true. Okay, go 
ahead, Ms. Allen--or Ms.--I am sorry.
    Dr. Andrews. The research suggests that the proportion of 
people who engage in what is called casual opioid use or heroin 
use, about 20 percent of those will proceed on to sort of a 
full-fledged dependence and addiction. So that's what we know 
at present.
    Mr. Grothman. Okay. Okay. Okay, we will leave it at that. I 
give the rest of my time back to the Chair.
    Chairman Walberg. I thank the gentleman. Votes, have they 
been called? 10 minutes left to vote? Well, we will--the 
members have this series of votes. We need to get to the floor. 
But to allow members the opportunity to question the witnesses, 
we will return to the hearing as quickly as possible. I urge 
all members to return here and as soon as we have a sufficient 
number of members we will begin. And so forgive us for having 
to leave you at your seat right now. We will do our best to get 
the votes and then be back.
    We stand in recess.
    [Recess]
    Chairman Walberg. The Subcommittee will come to order. I 
appreciate the witnesses cooling your heels for that period of 
time, including our demonstrations. So we are glad to be back.
    I now recognize the gentlelady from Delaware, Ms. Blunt 
Rochester.
    Ms. Blunt Rochester. Thank you, Mr. Chairman. First, I want 
to thank the panel so much for your testimony and just on so 
many different levels. And I have a few different questions 
that aren't necessarily connected.
    So the first is going to be Ms. Russo. You all talked about 
the--my real question is whether--you know, I assume if it is a 
physically demanding or a dangerous job that it would be 
disproportionally impacted in terms of who is prescribed and 
who might be a part of this epidemic. But I was wondering if 
there are particular industries that you are seeing higher 
incidents of addiction? And also for Dr. Andrews as well.
    Ms. Russo. For me I can only give you anecdotal evidence. 
What I'm seeing is--the highest rate of addiction I'm seeing is 
in the health care industry, mainly because people who work in 
hospitals and clinics have access to drugs. So I deal with a 
lot of health care employers who have employees who are 
addicted. That's just my personal reaction.
    Ms. Blunt Rochester. Great, thank you. Dr. Andrews?
    Dr. Andrews. The available research we have suggests that 
the highest incidence that rates we are seeing are in the 
fields of construction, manufacturing, and mining. And I do not 
think it is coincidental that those are all fields that are 
physically demanding and sometimes dangerous.
    Ms. Blunt Rochester. Thank you. My next question shifts to 
Ms. Allen. I want to really thank you so much for the 
leadership that your company provides, both for the products 
that you produce but also your person centered approach to 
management. And I was wondering if you could talk a little bit 
about the supports that you provide. As you talked about Sonny, 
you know, I wondered about what kind of infrastructure you 
have, whether it is an HR team, a really good HR team. You 
talked about the peer to peer and also just the culture, a 
family culture. But I was more interested also in are there 
specific supports that you provide. If you want to give it in 
writing later, that is fine too.
    Ms. Allen. No, I will be happy to answer that. Thank you. 
One of the things that we have done is we work with some local 
social service agencies. We've worked with other businesses 
around the country to share best practices. And what we've done 
is we work with the social service agencies for the wraparound 
services for our employees. So if they have an issue we can 
refer them. We can help them find the help that they need 
hopefully.
    We were talking at the break, one of the problems in our 
area is that the services are busting at the seams with the 
need and not enough opportunity to provide the services. We 
work with counseling services in our community, we work with 
the healthcare industry, and we work with other businesses just 
to see what, you know, other avenues are out there to help our 
folks.
    Ms. Blunt Rochester. Great. Thank you.
    Ms. Allen. We also--one other thing, if I may, is we work 
closely with the Board of Prisons, both in West Virginia, in 
our area--and we're in Wheeling, which is the northern 
panhandle, so we work closely with the Board of Prisons in the 
Ohio system as well. And so we interact with them and hopefully 
can find reentering citizens that way.
    Ms. Blunt Rochester. Thank you. And then my last question 
is really centered around the whole issue that Mr. Sablan and 
Ms. Fudge touched on in terms of the incidence in terms of 
people of color. I read recently a New York Times article that 
actually said that the opioid crisis is getting worse, 
particularly for black America. That was the title of this New 
York Times article. And in the beginning I think there was an 
under representation because many people of color were not 
being prescribed pain medicine. And now with fentanyl it seems 
to be on the rise. And so I was hoping that, whether it is Dr. 
Andrews, and then, Mr. Rhyan, if you would like to touch on 
that. And we have 30 seconds.
    Dr. Andrews. I'll try to make this quick. Overdose and 
death among African-Americans is on the rise. It is now growing 
faster than it is for white Americans. This problem is 
exacerbated by the fact that African-Americans were under 
represented in Medicaid expansion states. What I mean by that 
is that those states that chose not to expand Medicaid have a 
higher proportion of African-Americans. So at a time when this 
rate is increasing rapidly they are more likely to be in places 
where they will not have access to care if they are low income.
    Ms. Blunt Rochester. Thank you. My time is expired, but I 
would appreciate anything in writing as a follow up.
    Thank you. Thank you, Mr. Chairman.
    Chairman Walberg. I thank the gentlelady. Now I recognize 
the gentleman from Georgia, Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman. And thank you so much 
for being with us and enduring some of these questions that you 
are getting. I feel like I have got to comment as far as the 
terrible tragedy yesterday. And I just pray that prayers 
continue to flow there because it is the only way that I know 
that we can try to--I mean it is the only way that I can deal 
with things like this. It is just horrible. It is evil at its 
worst and it is just terrible. And my strength comes from Mark 
11:24, ``Therefore I tell you, whatever you ask in prayer, 
believe that you have received it, and it will be yours.'' And 
of course that takes a tremendous amount of faith to do that. 
And there are hundreds of other verses. God promises that if we 
would just believe those that we could correct a lot of these 
issues that we are dealing and talking with here today. And 
that is just my belief and my value system. I cannot change 
you, I cannot change myself. I cannot change anybody. But- and 
as far as the ironic part of this is that we are talking about 
something that is an epidemic here that is highly illegal in 
this country. I mean, we cannot seem to obey the laws we have, 
whether it is immigration or drugs or whatever. So I don't 
know. You know, I think the answer is, you know, what makes up 
your DNA and what you believe.
    To that extent, Ms. Allen--I hope we are related somewhere 
because, I will tell you, I was really impressed with--I am a 
small business owner and had to deal with a lot of these issues 
and had to deal with the drug situation. And, again, did it not 
from my--did it in a compassionate way and tried to help folks 
get well and get back to work. But as far as the percentage of 
your employees that have a drug problem, is it--I mean what--in 
your past, and you have got 300 employees now, what percent are 
really have an issue with this would you say?
    Ms. Allen. Well, Congressman Allen, we believe--we don't 
ask the question necessarily. There is conversation, but we 
don't necessarily ask it. It is our estimation that between 20-
25 percent of our total workforce has some kind of a checkered 
past.
    Mr. Allen. Right, okay. So they have had to deal with this 
issue in the past?
    Ms. Allen. Themselves. Their families I can't even speak 
to.
    Mr. Allen. Is there any evidence that--obviously you are a 
great company--And like I said, I have 12 grandchildren and we 
do, I use a lot of your products.
    Ms. Allen. Thank you so much.
    Mr. Allen. Yeah, I mean it is the best babysitter in the 
world, let me tell you. But you have got a great company and 
obviously you care deeply for your employees and they care 
deeply for you and that company. And you have had an amazing 
track record in rehabilitation. And I don't know what, you 
know, those that you have lost that you haven't been able to 
save from this problem, but would the fact that you are able to 
give somebody a good job making a great product and the 
opportunity for them to give themselves the dignity and the 
empowerment that they deserve as a human being on this earth, 
would that have something to do with them recovering from this 
horrible addiction?
    Ms. Allen. 100 percent, absolutely.
    Mr. Allen. 100 percent? Yeah.
    Ms. Allen. Absolutely it would. The ability to have a job 
and feel secure in having the ability to take care of yourself, 
let alone your family, to get out of homelessness, all those 
things require money and you get money from having a job. And 
so to provide somebody the opportunity to have the sense of 
pride and the sense of self-worth and the sense of dignity, to 
be able to walk home with a paycheck, that feels good, that 
feels really good to them. And for us to be able to provide 
that, we're proud of that. We're very proud of that. Are there 
failures? Absolutely. Does that stop us? No. We look for people 
who can fit inside our value system. And just because some 
people made a bad decision or a bad choice, doesn't mean they 
still aren't great people and have the opportunity to re-prove 
themselves.
    Mr. Allen. We all fall short, we all fall short.
    Ms. Allen. Absolutely. Because we've all made bad decision.
    Mr. Allen. Mr. Rhyan, do you have any research that--I got 
20 seconds--any research that might help us with, okay, how do 
we actually fix this? You know, what is the best way to deal 
with these things?
    Mr. Rhyan. Yeah, I think, as I said in my oral and written 
testimony, looking at this both from a treatment and a 
prevention perspective is really important. And I think 
employers that can play a role in providing treatment and 
recovery services is important, but also thinking about how 
they can act on the prevention side, and really limiting the 
opioids that are going into their environment and also helping 
their employees not get an addiction before it starts.
    Mr. Allen. Thank you all so much. And I yield back.
    Chairman Walberg. I thank the gentleman. Now I recognize 
the gentlelady from Oregon who has spent a lot of time recently 
listening to these concerns, Ms. Bonamici.
    Ms. Bonamici. I have. And thank you, Mr. Chairman. And I 
wanted to start also by making a comment, and with following up 
to Mr. Allen's comment, you know we have all been praying in 
our ways. We prayed after Sandy Hook, we prayed after Pulse, we 
prayed after Tamaqua Community College, we prayed after Las 
Vegas, after the church in Texas, and of course the nation is 
all praying, everybody in his or her own way after yesterday. 
But kids are still being murdered in schools. Prayers are not 
enough. And I want to align myself with Mr. Scott's call. And I 
don't always agree with Secretary DeVos, but I agree with her 
this morning. We have to have hearings to find out how we can 
keep our kids safe in school. I am a mom, my kids are grown, 
but I cannot imagine what those parents are going through.
    So, thank you, Mr. Walberg. Yes, I have just had five 
listening sessions around northwest Oregon with health care 
providers, people in recovery, law enforcement, and of course 
employers. I appreciate so much of the testimony here today and 
understand that work and our personal lives are so intertwined. 
Ms. Allen, thank you so much for setting that example. We have 
a business in my district, Beaverton Bakery, that has a second 
chance program. They work with our drug treatment court. And 
when we acknowledged them recently I prepared for an onslaught 
of criticism, but the response was overwhelmingly positive. So 
I think we will see that as more and more businesses do what 
you are doing.
    Mr. Rhyan and Dr. Andrews, you both mentioned drug disposal 
as important tools, and that is something that has come up in 
my listening sessions. There just are not enough options for 
people. It is one important step. There are not enough options 
for people to get rid of their unused prescription pills. So 
can you please elaborate about the role that employers could 
play in providing a solution? And briefly because I do have 
another question. Mr. Rhyan?
    Mr. Rhyan. Sure. I think you can look at Walmart as a great 
example. And they have proposed offering these sites both for 
their employees and for customers as well. And so I think 
employers absolutely can step up to do that, because you're 
right, not all local police stations have this. I know many do, 
but certainly many don't.
    Ms. Bonamici. And not to interrupt, but a lot of my 
constituents don't feel comfortable walking in to a police 
station saying I want to get rid of my unused drugs. I have a 
significant Latino population, minority populations. They are 
just not comfortable walking into a police station with drugs. 
So we have to have alternatives for people to get rid of those 
pills.
    Dr. Andrews, do you have anything to add?
    Dr. Andrews. I think that this is an incredibly important 
issue. Safe drug disposal must be an important component of 
prevention efforts around the opioid epidemic. I think that, 
you know, integrating safe disposal into places like 
pharmacies, primary care, places that are not either 
stigmatized or present criminal threats, and allow people to 
feel comfortable getting rid of those unwanted drugs is really 
key.
    Ms. Bonamici. Thank you. Those are logical. I want to move 
on--as the clock goes down. Mr. Rhyan, you mentioned parity for 
coverage of behavioral health. And one of the issues that has 
come up frequently is alternative treatments. We have at our 
Oregon Health Sciences University a great pain management 
clinic, but often times alternative treatments, whether it be 
physical therapy, massage therapy, acupuncture, they are not 
covered. And so they are not prescribed and instead opioids are 
prescribed. So are there good reasons for employers to make 
sure these alternative treatments are covered in the plans they 
offer? And how could we expand the number of employers who are 
doing that?
    Mr. Rhyan. Yes, absolutely. Employers should be involved 
and engaged in the insurance that they're offering to their 
employees and making sure that these alternatives are 
available. I think we've realized the risk of prescribing an 
opioid for chronic pain and the risk of addiction that occurs 
from that is very costly to that employer. And so making these 
alternatives available has the potential to save that employer 
money and is a better option for the employee themselves.
    Ms. Bonamici. Dr. Andrews, anything to add?
    Dr. Andrews. Yes. I would add to that there's research that 
suggests that opioids are not effective for chronic pain 
management and that we have to start funding both services as 
well as medications that are going to be more effective.
    Ms. Bonamici. Alternatives. And, Mr. Rhyan, you know, I 
have heard about sometimes fear of job loss or income loss. 
Somebody with a substance abuse disorder might delay or forego 
getting treatment. So how could comprehensive job protected 
paid leave allow workers to seek treatment and support those in 
their family who many need treatment?
    Mr. Rhyan. I think both of those options are very 
important. The evidence that we've seen from Lorain County and 
the other work that we've done is that employers that offer 
those programs tend to see very positive results from those 
cases. And certainly I think you can give examples as well, 
that shows a strong benefit and is good for all parties.
    Ms. Bonamici. Thank you. And, again, Mr. Chairman, thank 
you so much, and Ranking Member, for holding this hearing. It 
has been very informative and I yield back.
    Chairman Walberg. I thank the gentlelady. And now without 
objection I would like to recognize for questioning, five 
minutes of questioning, the gentleman from Pennsylvania who 
does not serve on the Subcommittee but who is in the full 
Education Workforce Committee and has a background in medical 
profession and has great interest in this issue, Mr. Thompson.
    Mr. Thompson. Well, thank you, Chairman. First of all, I 
appreciate not being objected to.
    Chairman Walberg. I didn't hear objection.
    Mr. Thompson. Okay. I am not going to raise one, so. And 
thank you to the panelists who are here. I mean this is the 
public health crisis of our generation. I have also conducted 
opioid roundtable listening sessions throughout my 
congressional district and continue to do that. I represent 
about a quarter of geographically the state of Pennsylvania, a 
lot of rural communities. The CDC, in October of 2017, 
published a report showing how disproportionately this is 
hitting rural America. This is hitting all populations, all 
households, all zip codes, all socioeconomic levels of living.
    I would caution against a narrow focus on opioids, because 
what we need to be looking at is addictive behaviors. I have 
communities, and I heard these stories where it was opioids and 
then because of what happened with heroine and opioids and some 
of the things that were put into it, the number of deaths, the 
number of focus on it, that the users shifted, they actually 
went to the treatment, suboxone, and utilized that illegally. 
They have gone back to meth because of all the factors. 
Whatever we do, we cannot do a narrow focus, Mr. Chairman. We 
need to do this so it applies to all behaviors.
    Most recently I met with folks from--some wonderful people 
that work in the prison system. They talked about this 
frightening thing called--and I am not going to go into it--but 
K2, which is--could not believe the stories they told with 
that. But some of the things I heard about though, was a lack 
of treatment. We have since the Great Society--there was a push 
back then to deinstitutionalize the Great Society. I think 
their push, the outlawing in 1965 of any kind of use of 
Medicaid in facilities larger than 16 people. That was a huge 
mistake. As opposed to improving those facilities so that they 
actually met needs, they just arbitrarily said you just can't 
go there. And I believe, as I talked with family members and 
people in the community, we have very limited options. We have 
drive-through treatment today, which doesn't work. And we need 
long-term treatment.
    And I was very pleased, the Trump administration's actually 
was the first one since the Great Society of 1965 who 
encouraged the states to exercise their waivers for Medicaid to 
be able to, you know, to be able to use those in facilities 
that have more than 16 beds. That is what we need. In a rural 
part of America, which is where I am from, you know, it is 
small facilities. And we have very limited options.
    And also, I am pleased with the support. Under President 
Obama we put $1 billion into this battle through the Cures Act, 
and under President Trump, just last week, we put $6 billion 
into this battle. You know, we need to continue to be 
attentive.
    So workforce, like many national crises the opioid epidemic 
is multifaceted. We have taken steps to respond and I am really 
appreciative of your comments.
    The President's Commission on Combating Drug Addiction and 
the Opioid Crisis released recommendations in November. And 
while the Commission's recommendations were vast, the only 
notable recommendation related to workforce addressed the 
shortage and the lack of training for substance abuse and 
medical training professional.
    So, very quick, in the time I have left, do you agree with 
the workforce recommendation by the Commission? And what 
further workforce recommendations were you anticipating? That 
is jump ball. Go for it, whoever would like to take that on.
    Dr. Andrews. I think that training is absolutely key, 
particularly around safe prescribing of opioids, and 
particularly for physicians and other prescribers of drugs. We 
have a series of excellent guidelines that have been 
established by the CDC to help physicians make good choices 
about safe prescribing, but we need to do more in terms--
    Mr. Thompson. But how about on the treatment side?
    Dr. Andrews. Mm-hmm. Right.
    Mr. Thompson. Because, you know, I understand responding to 
the crisis and preventing the problem.
    Dr. Andrews. Oh, absolutely.
    Mr. Thompson. But I am finding the key now really is--the 
key thing that we are not doing that we need to do is making 
sure that we have the long-term effective treatment to help 
people get, you know, get--once you are an addict I understand 
you always carry part of that, but how do we deal with that and 
help people live healthy lives post addiction?
    Dr. Andrews. Well, I think every state in the country 
should apply for a waiver for the IMD exclusion.
    Mr. Thompson. Agreed.
    Dr. Andrews. And I think that we need to, you know, train 
licensed professionals to provide these services. We've been 
making strides towards that end, but there is more to be done.
    Mr. Thompson. Thank you. Thank you, Chairman.
    Chairman Walberg. I thank the gentleman. And I would like 
to thank Mr. Rhyan, Ms. Allen, Dr. Andrews, Ms. Russo. Thank 
you for providing your insights to our panel today. A number of 
them talked to me on the way back to votes that they were so 
disappointed we just couldn't have carried it on, and schedules 
get in the way. One even said she is going to get the tape of 
it and see the ending. So you have been a great help to us and 
this is all a process that we go through.
    Seeing no other members that have questions I now turn to 
Ranking Member Takano for his closing comments.
    Mr. Takano. Thank you, Mr. Chairman. And I want to thank 
you again for hosting this important hearing, and the witnesses 
for providing their testimony.
    The opioid epidemic, and substance abuse more broadly, has 
been felt in every corner of this country. The impact is never 
limited to just one individual, it affects families, friends, 
and even employers. More than half of adults struggling with 
substance abuse were employed full-time in 2012. In a recent 
survey from the National Safety Council found that 70 percent 
of employers have felt the negative effects of prescription 
drug usage, including absenteeism, impaired or decreased job 
performance, and near misses or injuries. If we are going to 
make any progress in addressing the opioid epidemic and 
addressing substance abuse disorders in general, our workplaces 
must have policies that support affected workers.
    Now as Ranking Member Sablan said, access to comprehensive 
health coverage is imperative for workers with substance abuse 
disorders. Efforts to rollback protections or reduce the 
quality of health coverage denies them the help they need to 
move towards recovery. Workers affected by substance abuse also 
benefit from strong workplace policies that prevent addiction, 
allow them to take time to seek recovery, and help them reenter 
the workforce.
    As with many of the problems this committee seeks to 
tackle, preventative efforts will save lives. Employees who 
sustain work-related injuries and are treated within the 
workers' compensation system are often prescribed opioid pain 
medications. In 2011 more than 25 percent of cost from worker's 
compensation prescription drug claims were for opioid pain 
medications. Employers can take active steps to reduce the risk 
of workplace injuries that lead to opioid use. Injury and 
illness prevention programs require employers to work with 
their employees to proactively find and fix hazards. These 
programs required or encouraged by 34 states, including my home 
state of California, are proven to reduce injuries on the job.
    At work, when employees do suffer from a substance abuse 
disorder they often need to take extended periods of time to 
seek treatment. But workers who fear losing their jobs or 
missing a paycheck may delay or forego needed treatment. 
Currently, eligible workers who take leave under the Family and 
Medical Leave Act for substance abuse treatment are protected 
from retaliation. Unfortunately, 60 percent of workers are not 
eligible for leave under the FMLA. What is more, workers who 
are actually eligible often cannot afford a missed paycheck. 
According to a 2012 survey, 46 percent of FMLA eligible workers 
did not take leave because they could not afford to take unpaid 
time off. Paid family leave, as provided under the Family Act 
can provide crucial support for workers seeking treatment.
    Now, as we have recently seen, Republican proposals for 
paid leave, and we have actually seen Republican proposals for 
paid leave, and this is very encouraging. As we consider them, 
I think we should ask if these proposals would guarantee 
workers the ability to take leave for substance abuse 
treatment.
    We also know that the opioid crisis and the substance abuse 
disorders in general can lead to people leaving the workforce. 
An estimated 20 percent of men's and 25 percent of women's 
decreased labor force participation between 1999 and 2015 can 
be attributed to the increase in opioid prescriptions. When we 
hear these statistics it becomes clear how important it is for 
our employers to implement policies that break down barriers 
for impacted workers trying to reenter the workforce. For 
instance, while there is wide use of workplace drug testing 
policies there is little evidence that they actually are 
effective. Likewise, employers should reconsider hiring 
practices and policies for those with a criminal record. Ban 
the box policies can ensure employers first consider a worker's 
ability to do the job.
    To put it mildly, our country has had inconsistent 
responses to drug epidemics affecting our communities. But if 
we have learned anything, it is that we should try to rely on 
evidence base approaches to support those who are impacted. 
Strong sentiment and feelings of support are not enough. 
America's employers must step up to the plate and implement 
strong policies that support national efforts to address 
substance abuse.
    Thank you again, Mr. Chairman, for this hearing. Thank you 
to the witnesses. And I yield back my time.
    [The statement of Mr. Takano follows:]

Prepared Statement of Hon. Mark Takano, Ranking Member, Subcommittee on 
                         Workforce Protections

    I want to thank the Chair for hosting this important hearing. The 
opioid epidemic - and substance abuse more broadly - has been felt in 
every corner of this country.
    The impact of addition is never limited to just one individual. It 
is affect families, friends, and even employers.
    More than half of adults struggling with substance abuse were 
employed full-time in 2012. And a recent survey from the National 
Safety Council found that 70 percent of employers have felt the 
negative effects of prescription drug usage, including absenteeism, 
impaired or decreased job performance, and near misses or injuries.
    If we are going to make any progress in addressing the opioid 
epidemic and addressing substance abuse disorders in general, our 
workplaces must have policies that support affected workers.
    As Ranking Member Sablan has said, access to comprehensive health 
coverage is imperative for workers with substance abuse disorders. 
Efforts to roll back protections, or reduce the quality of health 
coverage, denies them the help they need to move towards recovery.
    Workers affected by substance abuse also benefit from strong 
workplace policies that prevent addiction, allow them take time to seek 
recovery, or help them re-enter the workplace.
    As with many of the problems this committee seeks to tackle, 
preventative efforts will save lives.
    Employees who sustain work-related injuries, and are treated within 
the workers' compensation system, are often prescribed opioid pain 
medications. In 2011, more than 25 percent of cost from workers' 
compensation prescription drug claims were for opioid pain medications.
    Employers can take active steps to reduce the risk of the workplace 
injuries that lead to opioid use. Injury and Illness Prevention 
Programs require employers to work with their employees to proactively 
find and fix hazards. These programs, required or encouraged by 34 
states, including my home state of California, are a proven way to 
reduce injuries on the job.
    At work, when employees do suffer from a substance abuse disorder, 
they often need to take extended periods of time to seek treatment. But 
workers who fear losing their jobs or missing a paycheck may delay or 
forgo needed treatment.
    Currently, eligible workers who take leave under the Family and 
Medical Leave Act for substance abuse treatment are protected from 
retaliation. Unfortunately, sixty percent of workers are not eligible 
for leave under the FMLA. What's more, workers who are actually 
eligible often cannot afford a missed paycheck. According to a 2012 
survey, 46 percent of FMLA-eligible workers did not take leave because 
they could not afford to take unpaid time off. Paid family leave, as 
provided under the FAMILY Act, can prove crucial for workers seeking 
treatment.
    We have recently seen Republican proposals for paid leave, and this 
is encouraging. As we consider them, I think we should ask if these 
proposals would guarantee workers the ability to take leave for 
substance abuse treatment.
    We also know that the opioid crisis, and substance abuse disorders 
in general, can lead to people leaving the workforce. An estimated 20 
percent of men's and 25 percent of women's decreased labor force 
participation between 1999 and 2015 can be attributed to the increase 
in opioid prescriptions. When we hear these statistics, it becomes 
clear how important it is for our employers to implement policies that 
break down barriers for impacted workers trying to re-enter the 
workforce.
    For instance, while there is wide use of workplace drug testing 
policies, there's little evidence that they are actually effective. 
Likewise, employers should reconsider hiring practices and policies for 
those with a criminal record. Ban the box policies can ensure employers 
first consider a worker's ability to do the job.
    To put it mildly, our country has had inconsistent responses to 
drug epidemics affecting our communities. But if we've learned 
anything, it is that we should rely on evidence-based approaches to 
support those impacted. Strong sentiment and feelings of support are 
not enough. America's employers must step up to the plate and implement 
strong policies that support national efforts to address substance 
abuse.
    I thank the witnesses for taking the time to testify today. Thank 
you. I yield back my time.
                                 ______
                                 
    Chairman Walberg. I thank the gentleman, appreciate his 
words. This was an important hearing. This hopefully will lead 
to further considerations, hopefully will lead to compassionate 
responses, sensitivity to the issue of concerns on both sides, 
on the issue of employee with a need for something to deal with 
chronic pain, for the employee who has become addicted to a 
substance, an ability to look at their needs and find 
cooperative solutions. On the other side, to look to the 
employer, to make sure that we applaud the employers who are 
trying their best to find a way to work with the problem and 
see it as an opportunity to grow a family, or a tribe, as you 
mentioned, Ms. Allen, in your experience. That we encourage 
employers by allowing a great amount of latitude and 
flexibility, to work with their own employee group and not have 
a one-size-fits-all that sometimes becomes extremely costly and 
unproductive, but also have some framework in place that does 
the encouragement that is necessary to find solutions that at 
least go as far as possible in making things work.
    I think as well, my colleagues would agree, that while we 
look at opioid heroine abuse, as was mentioned by Mr. Thompson, 
it is broader than that. Because if it goes from there, it will 
go to something else, and we need to be prepared for that as 
well.
    And also in the process, I might also suggest that we 
develop a recommitment to a society that shares some common 
values that impact in a positive way our nation, our thought 
processes, and encourage decency and order, compassion and 
caring, and commitment to responsibility as well as 
accountability also.
    It is a big challenge, but this country has met challenges 
before. I remember reading in history, over and over again, of 
times when our framers and founders ultimately locked horns and 
just could not come to a solution, knelt in prayer, ultimately 
got up and did things. Faith and works together make an impact.
    So thank you for being with us today. Thanks to the 
Committee. And having no other thing to come before us, I 
declare it adjourned.
    [Whereupon, at 12:41 p.m., the subcommittees were 
adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
